<html>
<title> - ADDRESSING CONCERNS ABOUT THE INTEGRITY OF THE U.S. DEPARTMENT OF LABOR'S JOBS REPORTING</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
   ADDRESSING CONCERNS ABOUT THE INTEGRITY OF THE U.S. DEPARTMENT OF 
                         LABOR'S JOBS REPORTING 

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 6, 2012

                               __________

                           Serial No. 112-172

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

75-708 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 6, 2012.....................................     1

                               WITNESSES

Mr. Daniel Moss, Executive Editor, Economy, Bloomberg News
    Oral Statement...............................................     5
    Written Statement............................................     8
Mr. Robert Doherty, General Manager, United States at Reuters 
  News
    Oral Statement...............................................    15
    Written Statement............................................    17
Ms. Lucy Dalglish, Executive Director, Reporters Committee for 
  Freedom of the Press
    Oral Statement...............................................    20
    Written Statement............................................    22
Dr. Keith Hall, Senior Research Fellow, Mercatus Center, George 
  Mason University
    Oral Statement...............................................    30
    Written Statement............................................    32
Ms. Diana Furghtgott-Roth, Senior Fellow, The Manhattan Institute
    Oral Statement...............................................    35
    Written Statement............................................    37
Mr. Carl Fillichio, Senior Advisor for Communications and Public 
  Affairs, U.S. Department of Labor
    Oral Statement...............................................    72
    Written Statement............................................    75
Mr. John M. Galvin, Acting Commissioner, U.S. Bureau of Labor 
  Statistics
    Oral Statement...............................................    82
    Written Statement............................................    84
The Honorable Jane Oates, Assistant Secretary, Employment and 
  Training Administration, U.S. Department of Labor
    Oral Statement...............................................    90
    Written Statement............................................    92

                                APPENDIX

The Honorable Elijah E. Cummings, a Member of Congress from the 
  State of Maryland, Opening Statement...........................   113
Questions for the Record.........................................   115
Answers to the questions from Thomson Reuters....................   117
Answers to the questions from Mr. Daniel Moss....................   122


   ADDRESSING CONCERNS ABOUT THE INTEGRITY OF THE U.S. DEPARTMENT OF 
                         LABOR'S JOBS REPORTING

                              ----------                              


                        Wednesday, June 6, 2012

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 9:36 a.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, McHenry, Jordan, Chaffetz, 
Walberg, Lankford, Labrador, DesJarlais, Gowdy, Guinta, Kelly, 
Cummings, Kucinich, Tierney, Clay, Connolly, Quigley, and 
Speier.
    Staff Present: Ali Ahmad, Majority Communications Advisor; 
Will L. Boyington, Majority Staff Assistant; Molly Boyl, 
Majority Parliamentarian; Lawrence J. Brady, Majority Staff 
Director; David Brewer, Majority Counsel; Sharon Casey, 
Majority Senior Assistant Clerk; John Cuaderes, Majority Deputy 
Staff Director; Adam P. Fromm, Majority Director of Member 
Services and Committee Operations; Tyler Grimm, Majority 
Professional Staff Member; Jennifer Hemingway, Majority Senior 
Professional Staff Member; Christopher Hixon, Majority Deputy 
Chief Counsel, Oversight; Mark D. Marin, Majority Director of 
Oversight; Laura L. Rush, Majority Deputy Chief Clerk; John A. 
Zadrozny, Majority Counsel; Jaron Bourke, Minority Director of 
Administration; Kevin Corbin, Minority Deputy Clerk; Ashley 
Etienne, Minority Director of Communications; Jennifer Hoffman, 
Minority Press Secretary; Carla Hultberg, Minority Chief Clerk; 
Chris Knauer, Minority Senior Investigator; Lucinda Lessley, 
Minority Policy Director; and Davida Walsh, Minority Counsel.
    Chairman Issa. Good morning. The Oversight Committee will 
come to order.
    We on the Oversight Committee exist to secure two 
fundamental principles: first, Americans have a right to know 
the money Washington takes from them is well spent and, second, 
Americans deserve an efficient, effective government that works 
for them. Our duty on the Oversight and Government Reform 
Committee is to protect these rights. Our solemn responsibility 
is to hold government accountable to taxpayers, because 
taxpayers have a right to know what they get from their 
government. We will work tirelessly in partnership with citizen 
watchdogs to deliver the facts to the American people and bring 
genuine reform to the Federal bureaucracy.
    When President Obama took office, he promised the American 
people to have a more transparent administration, the most 
transparent administration in history. From that point on, this 
was a standard that the Obama Administration would be held to. 
Almost four years later, more and more it seems that their own 
actions, the actions of this Administration, say just the 
opposite is true.
    The U.S. Department of Labor, led by Secretary Hilda Solis, 
has unilaterally changed the method by which the media accesses 
the Bureau of Labor Statistics jobs data. This unprecedented 
action has serious freedom of the press implications. Let there 
be no doubt we appreciate the need for simultaneous release of 
this sensitive information. But that has been accomplished for 
more than a generation through a procedure that was as 
effective and more acceptable to the media itself.
    The abrupt nature of this change, coupled with the absence 
of a clear explanation and a lack of public input, raises key 
questions about who made this decision to implement this change 
and why? Did that individual have the authority of law?
    As the Committee has examined this, this isn't the first 
time the issue has come up concerning the Labor Department's 
reach into the Bureau of Labor Statistics. You will recall the 
DOL received $500 million in stimulus funds to train workers 
for so-called green skills. But an audit by the inspector 
general found the program to be an utter failure and 
represented a tremendous loss to the taxpayer. This included 
training for occupations that are hardly green, such as welder, 
sheet metal workers, and machine operator. Certainly, those are 
jobs that may be needed, the skills are valuable, but they are 
certainly not all of a sudden green after hundreds of years of 
being around as a profession.
    Aside from the excuse that perpetrated the Department of 
Labor, they have been using the guise of green jobs to justify 
ongoing funding of the President's green agenda. However, the 
standard they have invented includes counting as a green job, 
in addition to the welder, college professors are now green, 
environmental reporters are now green, policy experts at any 
think tank can be green. In fact, lobbyists can be green.
    Now, I have been in Washington for nearly 12 years. There 
is a lot of green with lobbyists. None of it should be counted 
as an environmentally green job.
    There are 33 times as many so-called green jobs in the 
septic tank and--you can't make these things up, guys--septic 
tank and portable toilet servicing industry as there are in 
solar, energy, and utility areas. More than 160,000 of these 
green jobs are related to school bus drivers.
    Using these tactics to manipulate the number to mislead the 
American people is nothing short of embarrassing and a betrayal 
of the standards that President Obama established for his 
administration. Transparency begins with honesty. You cannot 
send out false propaganda and then say you are transparent. The 
truth is essential. The barest of the truth is essential; 
unfiltered if you are to be transparent.
    We all appreciate this Administration has an opinion, and 
this Chairman has an opinion that is sometimes different. We 
are entitled to our opinions. We are not entitled to our facts.
    Is it any wonder why there is such concern now that 
Secretary Solis's department wants to unilaterally change and 
control how the press receives job numbers from the Bureau of 
Labor Statistics? Of course, when invited to appear today to 
explain why this change in freedom of the press would occur, 
Secretary Solis, in no uncertain terms, turned down all 
invitations and offered us alternatives. We appreciate those 
who are here as alternatives; however, ultimately, if you are 
the Secretary of Labor, the buck should stop with you. If it 
doesn't stop there, where can the Americans believe it stops? 
It doesn't stop at the White House if the Secretary allows 
something to happen and then doesn't have an answer.
    We will hear more about that here today and I hope it will 
send a clear message to the Administration.
    With that, I recognize the distinguished Ranking Member for 
his opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman, and I 
thank you for holding today's hearing, which appears to focus 
on two very different topics involving the Department of Labor 
and Bureau of Labor Statistics.
    The first topic is the integrity of the Department of 
Labor's job reporting. The Department of Labor strikes a 
balance between preventing the unauthorized release of key 
economic data and providing journalists with access to that 
data ahead of time so that they can prepare their stories with 
context about the broader employment situation. This balance is 
very important. We are the public's eyes and ears, so it is 
critical that they have the access necessary to ensure that 
they have a thorough and accurate understanding so that they 
can place it in context.
    A leak of this data could have negative consequences. For 
example, in the hands of certain traders, early access to this 
data, even if just by a few seconds, could allow their powerful 
trading algorithms to manipulate and market and reap millions 
of dollars. That is why the Department and other data reporting 
agencies employ procedures to prevent unauthorized releases.
    Recently, the Department of Labor hired Sandia National 
Laboratories, which oversees the security of our nuclear 
arsenal, to evaluate whether changes were needed to meet the 
new security requirements of today's constantly changing 
technological environment. Sandia found significant 
vulnerabilities in the Department's procedures and recommended 
steps to mitigate those risks. Sandia also warned that those 
seeking to break current security controls are profit driven, 
technically sophisticated individuals or organizations who may 
have considerable resources at their disposal. Acting on 
Sandia's recommendations, the Department announced new controls 
on hardware and software in the lockup environment.
    In addition, the Department has now excluded specific firms 
that sought access to sell data to Wall Street traders a 
fraction of a second before other traders see it. Initially, 
some in the media complained that the Department's proposed 
changes were too restrictive, and these complaints appear to be 
the impetus for today's hearing.
    Over the past month, however, the Department has worked 
with press outlets to accommodate their concerns while 
enhancing security. We anticipate that there will be additional 
announcements regarding these ongoing discussions soon.
    The second topic of today's hearing appears to be how the 
Department of Labor calculates the number of green jobs in the 
United States economy. This is the third hearing the Majority 
has called on this topic and the third time the Department of 
Labor officials have testified before us. Last July, the 
Brookings Institution issued an important report on green jobs 
with the following findings: first, green jobs employ almost 
2.7 million Americans, more than the fossil fuel industry and 
twice the size of the bioscience sector; second, they said the 
green economy has expanded at greater rates than the economy as 
a whole. They went on to say that the green economy offers 
considerable and more highly paid opportunities for low-and 
middle-skilled workers.
    Finally, they said, fourth, the green economy is 
manufacturing and export intensive, both of which are critical 
for America's future.
    Since this report was issued, the Bureau of Labor 
Statistics estimated that the number of green jobs is even 
higher, reporting that over 3 million that helped rebuild our 
economy. This really should be welcomed by policymakers in 
Congress. Unfortunately, this Committee seems more intent on 
challenging the methodologies used by the Bureau of Labor 
Statistics rather than helping put people back to work.
    I thank the witnesses for being here yet again today and I 
look forward to your testimony.
    With that, Mr. Chairman, I yield back.
    Chairman Issa. I thank the gentleman.
    I would take note that although the Ranking Member 
mentioned the DOL report, the Sandia report has not been made 
available to us under any circumstances. So notwithstanding the 
gentleman's assertions, until the Department of Labor makes 
that report available to us, we will consider it be a CYA 
document held close against Congress.
    I hope the gentleman will join with me in issuing a 
subpoena if they will not deliver that document they allege is 
the impetus for his closing.
    Mr. Cummings. I would be happy to cooperate if the Chairman 
is willing to consult with us on the subpoena. I would be happy 
to talk about it and, if it is warranted, I certainly would 
join you.
    Chairman Issa. I thank the gentleman.
    Members will have seven days in which to submit opening 
statements for the record.
    We will now recognize our first panel.
    Mr. Daniel Moss is the Executive Editor for Economics and 
International Government at Bloomberg News. Welcome.
    Mr. Rob Doherty is the General Manager, United States, for 
Reuters News. Also, welcome.
    Ms. Lucy Dalglish is the Executive Director at the 
Reporters Committee for Freedom of the Press. Also, welcome.
    Dr. Keith Hall is the former Commissioner of the Bureau of 
Labor Statistics and is currently a Senior Fellow at the 
Mercatus Center.
    And, last but not least, Ms. Diane Furchtgott-Roth is the 
former Chief Economist of the United States Department of Labor 
and a current fellow at the Manhattan Institute.
    Welcome all. Pursuant to our Committee's rules, would you 
please rise to take the oath and raise your right hands?
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    [Witnesses respond in the affirmative.]
    Chairman Issa. Let the record reflect that all answered in 
the affirmative, to the best of their ability.
    Please be seated.
    Now, many of you are returning to testify; a couple of you 
it may be your first. We have members that will be coming in 
and out. We estimated about half an hour for your opening 
statements, so try to stay as close to five minutes as you can. 
We will have your entire opening statement, plus additional 
material you may wish to submit to support anything you say 
here today, included in the record without objection, so you 
only need to summarize because, for the record, all that you 
have submitted will be on the record.
    Mr. Moss.

                       WITNESS STATEMENTS

                    STATEMENT OF DANIEL MOSS

    Mr. Moss. Chairman Issa, Congressman Cummings, members of 
the Committee, I thank the Committee for the opportunity to 
appear today and I want to express my particular appreciation 
to the Committee for its engagement in this issue.
    Bloomberg News provides data, news, analytics to decision 
makers and industry beyond finance. Bloomberg News is delivered 
through the Bloomberg Professional Service through television, 
radio, mobile, the Internet, and two magazines, Bloomberg 
Business Week and Bloomberg Markets. We are syndicated in 
hundreds of newspapers globally. We cover the world with more 
than 2,000 reporters and editors in 146 bureaus in more than 70 
countries. We are experts at publishing economic statistics and 
disseminating market-moving information.
    Media stakeholders are making progress, Mr. Chairman, with 
the Department of Labor in arriving at a place that will not 
undermine the First Amendment, will not reduce transparency and 
accuracy of critical data, or create unacceptable cybersecurity 
risks. While no conclusive agreement has been reached, the 
movement that we have seen would not have been possible without 
the engagement of members of this Committee and committees and 
members in both chambers of both parties. We are particularly 
thankful to Senator Blunt for his engagement.
    On April 10, without the notice and comment period dictated 
under the Administrative Procedures Act, the DOL announced a 
dramatic policy shift: henceforth, reporters and editors would 
be required to use only government software, government 
hardware, government lines, government notebooks, and 
government pens. The use of modern news-producing software, 
with the greater accuracy and context it provides, would be 
prohibited. All transmission would be via the internet, not 
through secure lines. The Department of Labor would own and 
operate the lines, control Internet access, and control 
Internet connections, creating a single point of failure 
because all news organizations would share the same 
infrastructure.
    Although the policy change was unprecedented, it was 
presented as nonnegotiable, a fait accompli. News organizations 
were required to remove their software, hardware, and dedicated 
lines from the Department by June 15.
    This proposal threatens the First Amendment. The Government 
would literally own the reporters' notebook. Unlike any other 
Federal agency, the Department of Labor is requiring that 
reporters write news articles on government-owned and operated 
computers on a regular basis, which would give the Government 
unfettered access to reporters' notes and draft. No 
administration anywhere should have access to a reporter's 
thoughts, drafts, or notes as a condition for covering the 
news, let alone news of such importance.
    The order also threatens national security. House, Senate, 
and the Administration have rightly spent a great deal of time 
attempting to address potential cybersecurity threats. 
Protecting our financial markets from disruption from cyber 
attack has been a key part of that discussion.
    In the world in which we now live, for the Department of 
Labor to deliberately force the transmission of data away from 
secure, dedicated lines and, instead, mandate its transmission 
via the Internet is inexplicable. The vulnerability of the 
Internet to even accidental disruption is a large part of the 
reason why news organizations have invested in their own secure 
lines. The prospect of a deliberate disruption, potential 
spoofing, potential market manipulation are real.
    In August last year, the Department of Labor's website went 
down following the release of the monthly employment situation. 
The unemployment rate was unavailable for one hour.
    If the April 10 order, Mr. Chairman, goes into effect, the 
result would be potentially catastrophic. This proposal will 
increase market vulnerability and volatility. In the modern era 
of computerized trading, people compete in nanoseconds. Studies 
of the 2010 Flash Crash illustrate how quickly small incidents 
can result in major disruptions.
    When the Department of Labor hosted a conference call on 
April 16, ostensibly to answer media questions on the new 
policy, I asked, ``what is the problem you think, you imagine 
this will prevent?'' The Department of Labor's response was, I 
think we are going to move on. Operator, we'll take the next 
question.
    The alleged rationale for the new policy has gradually 
slipped out in dribs and drabs, ultimately, relying n a report 
by Sandia National Laboratories, which, as the Chairman noted, 
has not been publicly released.
    The DOL has alleged its new policy is necessary because 
unauthorized people planted unauthorized equipment in the 
Department's communications closet. But this is an argument for 
enforcing the existing policy, not imposing draconian new 
rules.
    The Sandia report speaks of those who oppose the 
Department's recommendations as adversaries. That is according 
to a summary, Mr. Chairman, which has circulated on the Hill. 
It notes that although they are willing to bend and potentially 
violate the law, violence is unlikely as an operational method. 
Does the Department believe the media are adversaries? What 
rules and laws are we likely to break? On what evidence or 
experience is such a statement based?
    Sandia continues, stating the apparent root cause for the 
issues driving this assessment is the possible presence of 
algorithmic traders and/or their agents in the press lockup 
facility. Has the lockup been infiltrated by hedge funds? The 
public, press, and Congress would be entitled to that 
information. Is it that difficult to distinguish between an 
authentic news organization and a hedge fund? Most 
significantly, if the root cause of the issues driving this 
assessment is the possible presence of algorithmic traders, why 
not just expel them from the lockup? Why threaten to erode the 
First Amendment?
    In summary, Mr. Chairman, this proposal does undermine the 
First Amendment; it reduces transparency; it potentially 
reduces the accuracy of the data; increases market volatility; 
imposes a cybersecurity threat.
    Given the DOL's refusal to extend the current June 15 date 
for removing equipment, the calendar will dictate our shortly 
seeking an injunction unless a comprehensive overall agreement 
is reached. An understanding has been reached amongst technical 
officials of the news organization and some technical staff at 
Labor. Labor is still to get back to us on a number of issues, 
including rules for the lockup. Until an overall agreement is 
reached in the format of the April 10 letter, the order stands.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Moss follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Issa. Thank you.
    Mr. Doherty.

                  STATEMENT OF ROBERT DOHERTY

    Mr. Doherty. Mr. Chairman, Ranking Member Cummings, members 
of the Committee, thank you for inviting me to testify today on 
the new policies and procedures the Labor Department is 
planning for its press lockups. My name is Rob Doherty. I am 
General Manager in the United States for Reuters, which is the 
news division of Thompson Reuters.
    Reuters is the largest international news agency in the 
world. We have more than 2900 full-time journalists in 200 
bureaus around the world reporting in 20 languages. Globally 
our audience includes more than 1700 text media and 600 TV 
clients, over 35 million visitors to Reuters websites each 
month, and more than 400,000 financial professionals who 
subscribe to Thompson Reuters desktop products.
    On April 10th, the Labor Department notified our Washington 
bureau chiefs and other news organizations about major changes 
they plan for the operation of its lockups. Dan has covered 
those changes in detail, so I won't repeat those. But, needless 
to say, we were taken aback by the planned changes. They were 
dramatic, announced without any advanced notice, and with no 
real explanation of the rationale, and, importantly to us, 
without any prior consultation with the affected news 
organizations.
    I want to be clear on two points. First, we believe lockups 
are extremely useful in promoting accurate and authoritative 
dissemination of sensitive data because they provide 
journalists time to better understand the information before 
sending it to the public. Second, we fully acknowledge the 
responsibility of the Department of Labor to implement lockup 
rules to guard against premature release of information. It is 
in everyone's interest that the Department do so.
    Indeed, we believe the lockup procedures now in place have 
been effective in preventing early release of the Labor 
Department data. But despite that apparent success, the 
Department plan announced in April would require us to use 
government equipment to do our work as a matter of routine, 
something we, as an independent news organization, 
fundamentally oppose.
    Additionally, the changes announced by the Department in 
April would represent a major step backward technologically for 
new organizations and for the dissemination of critical data 
through recognized news channels. That would imperil the 
ability of news organizations to provide such information to 
the public in a reliable, accurate, and timely way, and lead to 
confusion in the public and in the financial markets that rely 
on the Department's data. To gauge the importance of that data 
to the public in general and the markets in particular, one 
needs to look no further than last Friday's unemployment 
report.
    Years of development work have gone into automating our 
software to ensure it works with our proprietary editorial 
system and redundant private communications lines to speed the 
delivery of crucially important information to millions of our 
readers and subscribers across the globe. Our software allows 
journalists to efficiently and accurately incorporate new 
material from Department news releases, as well as to provide 
historical data that puts that new material in context. This 
would be lost if lockup participants must use a Department-
provided standard configuration computer and a Department-
provided Internet service provider, and it would be lost 
without any assurance that new procedures would materially 
decrease the probability of premature leaks. And, as Dan said, 
you can make an argument that it would actually increase the 
difficulties with the disseminate of the data.
    Because of these concerns, we joined with three other news 
organizations, Bloomberg, The Associated Press, and Dow Jones, 
in requesting a meeting with the White House to voice our 
opposition to the April 10 announcement. We are also hoping to 
better understand the Labor Department's concerns and to see if 
we could find a way that the Department could met its 
responsibility to prevent early release of data without the 
draconian changes it was planning.
    We now have had a series of what I would describe as 
constructive meetings with the Labor Department officials and 
staff, and those meetings have left us optimistic that we will 
be able to agree on procedures and policies that, while not 
perfect and not the status quo we would prefer, would, in our 
view, represent a workable compromise and allow news 
organizations to disseminate information from the lockup 
quickly, reliably, and accurately. But as Dan has made the 
point, we are not there yet. We still are hoping we can 
complete an agreement in time for the July 6th deadline set by 
Labor. If not, we will be asking the Department for a short 
delay to allow any agreed changes to be implemented in the 
least disruptive way possible.
    And I want to underscore that as we discuss other issues 
and reach agreement on other issues, the timing is really an 
important issue for us. It is now June 6th. As Dan said, the 
equipment starts coming out on June 14th and 15th. The new 
procedure goes in place July 6th, which, by the way, is the 
next unemployment report, which will be hugely watched. Talking 
to our technical staff, they think it is nearly impossible to 
do this the right way and be ready for July 6th. So if we are 
able to reach an agreement on the larger issues, the technical 
issues, and go forward, I hope the Department will be willing 
to be flexible on the implementation date.
    Thank you again for your invitation to address the 
Committee and for your continued interest in this issue, and I 
would be happy to answer any of your questions.
    [Prepared statement of Mr. Doherty follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Issa. Thank you.
    Ms. Dalglish?

                   STATEMENT OF LUCY DALGLISH

    Ms. Dalglish. Thank you. Chairman Issa, Ranking Member 
Cummings, and members of the Committee, thank you for the 
opportunity to testify today. I am Lucy Dalglish, Executive 
Director of the Reporters Committee for Freedom of the Press. 
For more than 40 years, the Reporters Committee has provided 
free legal and advocacy services to protect the rights of 
journalists working where United States law applies.
    I am happy to testify today on behalf of the Sunshine in 
Government Initiative, of which the Reporters Committee is a 
member. SGI is a coalition of media associations promoting 
greater transparency in government.
    Thank you, Mr. Chairman, for holding this hearing. We 
strongly object to the changes the United States Department of 
Labor announced less than two months ago. The Department's 
approach, as proposed in April, makes the release of market-
moving information less reliable, less secure, more prone to 
errors and inaccuracies, and less equitable as it reaches the 
public.
    Last month, the Sunshine in Government Initiative urged the 
Labor Department to suspend these changes, clarify the concerns 
with the current process, and work with us to address those 
concerns. Since then, only your attention to this issue has 
helped bring about productive discussions between the media 
entities and the Labor Department. Quite honestly, we are 
bewildered by the Labor Department's announcement on April 
10th, without consulting with any of the media involved, about 
these dramatic changes that will have a devastating impact on 
journalists' ability to inform the public in a timely and 
useful manner. It took the interest of this Committee to spur 
what we understand to be protective discussions between the 
journalists in the lockup and the Department.
    As you know, Mr. Chairman, since its formation after 9/11, 
SGI has worked with you and others on Capitol Hill and across 
the Executive Branch to work through problems, and we remain 
committed to working with the Department on this issue. But let 
me be clear; we do not wish for the Labor Department to 
maintain procedures that would advantage one media entity over 
another, or make it easier to break embargoes. We are hopeful 
that the Labor Department can address vulnerabilities in the 
current lockup procedures with ongoing dialogue. While these 
conversations continue, let me describe how the announced 
changes would undermine the integrity of the high-profile 
economic indicators released to the public.
    First, the Labor Department's announced approach raises 
cybersecurity concerns. Releasing this data through an online 
connection may allow an Internet hacker to target the release 
and change key numbers as they leave the Department, or a 
denial of service attack could delay release to some or all.
    Second, the Labor Department's new approach would likely be 
less reliable than the current practice. Currently, at least 
two media organizations have built redundant system hardware. 
If a circuit fails, a second circuit already installed in the 
network reroutes data traffic. If a secure line fails, 
duplicate dedicated cabling in place carries the traffic. Even 
attempting to duplicate these secure systems on government-
owned computers would be costly to taxpayers.
    Last, the Department's new approach would make errors more 
likely. Without their own equipment, preloaded spreadsheets and 
custom software to digest the data, journalists would have to 
type this information relying on memory or handwritten notes. 
This dramatically increases the chance of errors. Markets that 
measure time in microseconds surely will react to wrong data 
before any correction can be issued.
    No one begrudges the Federal Government from moving 
quickly, if need be, to address immediate security concerns, 
but the Labor Department should first explain its concerns and 
consider the perspective of journalists and the public before 
making such a dramatic and permanent procedural change. The 
media takes government interference with its work product very 
seriously. So does the Constitution. In fact, the First 
Amendment obligates the government to allow journalists to 
operate independently from government control. Requiring 
journalists to draft and publish stories using government-owned 
computers loaded with government-controlled software simply 
crosses a line the First Amendment clearly drew to separate the 
press from the government.
    In conclusion, Mr. Chairman, we are committed to working 
with this Committee and the Labor Department to find a 
resolution that serves the public interest. Thank you.
    [Prepared statement of Ms. Dalglish follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Issa. Thank you.
    Dr. Hall.

                    STATEMENT OF KEITH HALL

    Mr. Hall. Good morning, Chairman Issa and Ranking Member 
Cummings and members of the Committee. My name is Keith Hall 
and I am a Senior Research Fellow at the Mercatus Center at 
George Mason. Most recently I was the Commissioner of the 
Bureau of Labor Statistics from 2008 to 2012. In my testimony 
today, I would like to talk about the Bureau of Labor 
Statistics and its role in disseminating economic data.
    First of all, let me note that the Bureau of Labor 
Statistics is an independent Federal statistical agency and, as 
such, it is tasked not only with collecting, compiling, and 
producing economic data, but also with disseminating the data 
and explaining it to the public. There are a number of 
principles which any Federal statistical agency follows: it is 
to disseminate data in both a transparent and independent 
manner, with no bias of any type; they are also tasked with 
creating a level playing field for the release of data, meaning 
that nobody has an advantage of getting the data earlier, ahead 
of other people. In addition, they are responsible for the 
security of the data, and that is everywhere, including inside 
the lockup room.
    In fact, the Bureau of Labor Statistics has the 
responsibility to decide whether or not to even have a data 
lockup. And I am making this distinction because this is the 
independent Federal statistical agency, this is not the 
Department of Labor that I am talking about.
    Traditionally, news media were considered by statistical 
agencies as the most effective distributor of economic 
statistics to the public. Wire services were the most practical 
and fair distributor to media outlets, and for this reason 
press lockups were designed decades ago to provide the most 
important economic data to wire service reporters. Wire service 
reporters would get to look at the data ahead of release time, 
under lockup conditions; they would get to ask clarifying 
questions; they would get to write their stories on a 
typewriter; and then when the release time came, reporters 
would all race to a bank of telephones and call in their 
stories. And that is essentially how the lockup runs today, 
despite tremendous changes in technology.
    Today, now, most new economic data is actually disseminated 
to the public through a statistical agency website or by email. 
Lockup continues for the most important economic data, but 
technology now has changed and I think it has made it difficult 
to maintain adequate security inside the lockup. In particular, 
automatic computer trading now has made BLS data, employment 
release data like employment release data from BLS, extremely 
valuable and fractions of a second makes a big difference in 
financial markets.
    Also, lockup participants may now have specialized computer 
equipment and software that links to automated trading models. 
When I was commissioner, back in 2009, I read one particular 
article, and I am going to quote from it, and this caused me a 
great deal of concern: ``Key economic indicators are released 
to financial markets through a small and exclusive group of 
accredited news agencies. A trading model can now read the 
specially formatted data and enter into a trading position 
immediately, before the larger market has had time to read the 
release on news wires and digest its meaning.''
    This, to me, raised concerns over whether or not we had a 
level playing field coming out of the lockup. I have a number 
of recommendations on this, but let me also mention a second 
thing, quickly, as well.
    Emerging technology constantly changes and agencies like 
BLS that are tasked with disseminating data need to be able to 
take advantage of new technology and new methods of 
disseminating data. For example, social media is a relatively 
new method of disseminating economic data and other statistical 
agencies at the moment have free access to use social media. I 
believe BLS should be allowed to freely use social media and 
any other new method of dissemination without having to 
compromise its position as an independent, objective provider 
of data, free from filtering by the Office of the Secretary, 
free of bias in its presentation, and free from actual or 
perceived parts in intervention. That is my first 
recommendation.
    Second, with respect to press lockups, I have a number of 
things I mention here that are just common sense and long 
overdue: having a lockup agreement, having adequate control of 
the lockup room. A number of those things have not been in 
place; they need to be put in place right away. One of the 
things that I have a particular problem with is TV journalists 
are now actually allowed to break the lockup and leave the room 
and, in fact, go outside before the data is released to set up 
for cameras. I think that is a security concern, so I think 
that ought to end right away.
    Most importantly, though, I think that the Bureau of Labor 
Statistics should be given full oversight authority for 
conducting all its press lockups, developing and maintaining 
policy and procedures, and have the authority to establish and 
implement credentialing and confidentiality protocols for 
participating news organizations and employees.
    Let me just say to some degree this is not just my opinion; 
this is the opinion of the Office of Management and Budget, at 
least if you believe the OMB Federal Statistical Policy 
Directives Number 3 and 4, who make it clear, as I mentioned 
before, that it is BLS's responsibility to determine whether or 
not there is a lockup and it is their responsibility to 
actually disseminate the data, and they are the ones who are 
responsible for the confidentiality.
    Thank you.
    [Prepared statement of Mr. Hall follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Issa. Thank you.
    Ms. Roth.

               STATEMENT OF DIANA FURCHTGOTT-ROTH

    Ms. Furchtgott-Roth. Thank you very much for inviting me to 
testify here today. I was asked to talk about green jobs, and 
it is a very topical time to be discussing green jobs because 
we just got the employment news on Friday which showed that the 
number of jobs in the economy rose by only 69,000, following an 
increase of 77,000 in April. The unemployment rate rose to 8.2 
percent and has been above 8 percent for well over three years.
    Well, America might not be good at creating jobs, but it 
excels at relabeling jobs as green jobs. It is much easier to 
redefine an existing job as a new job, a green job. How many 
jobs has our government relabeled as green? The Bureau of Labor 
Statistics decides which jobs are green and which are not, and 
they identified 3.1 million in 2010, the latest year available, 
in a release in March 2012. Americans may have toiled for 
decades at the same job, unaware that a Federal agency might 
some day designate that job green.
    I would like to argue that we should focus on job creation, 
rather than green jobs, because we have over 12 million 
unemployed. Our broadest rate of unemployment is 14.8 percent. 
If people want to buy green products, such as Priuses, because 
the price of gasoline is high, they will do so. Much emphasis 
on green has driven jobs overseas. Just two examples: 
incandescent light bulbs. The ban on incandescent light bulbs 
has resulted in the closure of those factories and the new 
CFLs, the new fluorescent are all made in China. So there are 
green jobs, but green jobs for China.
    Many solar panels, wind turbines that are required by law 
are made overseas in places such as China. Coal is produced 
here, but we are increasingly not being allowed to use it. 
China is using our coal and produces less than 1 percent of its 
electricity from renewables. So it makes these products with 
coal and then sends them to us, which reduces our jobs.
    So BLS decides which jobs are green, and sometimes these 
jobs qualify for tax preferences or subsidies. For example, our 
transportation policy is based on green jobs, with 20 percent 
of the Highway Trust Fund reserved for mass transit. Tax 
subsidies are given to electric vehicles both for companies to 
produce them and for Americans to buy them.
    BLS has defined green jobs as ``jobs in businesses that 
produce goods or provide services that benefit the environment 
or conserve natural resources'' or as in ``jobs in which 
workers' duties involve making their establishment's production 
processes more environmentally friendly or use fewer natural 
resources.''
    So in order for a firm to be considered green, they have to 
meet one of five goals, namely, energy from renewable sources; 
energy efficiency; pollution reduction or removal; natural 
resources conservation; and environmental compliance, 
education, training, and public awareness.
    So I was particularly interested when I came in today to 
see this cup here. Now, this just is a cup, but on it it says 
``We have the power to save energy.'' So this fits in with 
number five, environmental compliance education compliance, 
education, training, and public awareness. So now people who 
produce these cups, they would be considered to have green 
jobs, but that hasn't meant a total increase in jobs in the 
economy, it is just a matter of relabeling.
    In agriculture, for example, one of the main categories of 
workers are 36,000 organic farmers and growers, and their 
workers are credited with accomplishing both natural resource 
conservation and creating energy from renewable sources. So 
when a farmer produces corn to eat, that is not counted as a 
green job, but when he produces corn for ethanol, that is 
counted as a green job.
    With farming, it is possible to calculate the percentage of 
employment that is dedicated to ethanol or organic produce, but 
in other areas it is not so clear. One example is wood chips 
used for biomass. How many workers are employed by the timber 
industry to create wood chips? Wood chips are largely a 
byproduct of milling, and milling is not considered a green 
job. Yet, according to a Labor Department definition, the 
33,000 wood product manufacturing jobs are called green because 
companies can sell the wood chips for biomass.
    I have many other examples in my testimony, but I see that 
my time has run out. Thank you very much.
    [Prepared statement of Ms. Furchtgott-Roth follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Issa. Thank you. Thank you all for your testimony.
    Dr. Hall, I am going to begin with you because you do see a 
need for reform in the lockup, but what you said earlier is of 
concern to me. The Office of Management and Budget has a set of 
guidelines; it makes every effort to make sure that the Bureau 
of Labor Statistics is independent.
    Carl Fillichio, do you know who he is?
    Mr. Hall. Yes, I do.
    Chairman Issa. Does he work for the Bureau of Labor 
Statistics?
    Mr. Hall. He works for the Secretary of Labor.
    Chairman Issa. So he is in fact a political appointee, non-
confirmed, working for the Secretary of Labor, and he is the 
person that came up with this policy, isn't he?
    Mr. Hall. Yes, he is.
    Chairman Issa. Okay. So they violated OMB guidelines. It is 
being directed from the Department of Labor. This is in fact 
not the independent agency intention that you worked for so 
long and hard, and you have been very candid with us in the 
past. It is your job to count the green jobs you are told to 
count, so you accurately account for the numbers. It is 
somebody else's decision about whether they are green or not 
under a definition. So we have enjoyed your honesty, but your 
honesty here says it is supposed to be one way. It clearly 
wasn't, isn't that correct?
    Mr. Hall. That is correct. I do think the Bureau of Labor 
Statistics should be responsible for running the lockup.
    Chairman Issa. By the way, would you ever have thought that 
the Department of Labor or Bureau of Labor Statistics would be 
left of Brookings, able to come up with more green jobs, even 
then one of the great liberal think tanks? You need not answer 
that one.
    Mr. Moss, you are one of the companies that invested 
heavily in proprietary lines in order to send out in a timely 
basis, aren't you?
    Mr. Moss. Yes.
    Chairman Issa. Okay. So you did so for two reasons. One was 
clearly to ensure that your story didn't fail to go out and I 
guess the second one is to make sure you got it out at least as 
fast as anyone else, if not a few seconds faster, isn't that 
right?
    Mr. Moss. Mr. Chairman, we are not interested in getting it 
out faster than anybody else.
    Chairman Issa. But you at least want to tie the fastest.
    Mr. Moss. We have an interest----
    Chairman Issa. Mr. Doherty, next to you, is shaking his 
head yes, so I am assuming he wanted to.
    Mr. Moss. We have an interest in transmitting the 
information as instantaneously as the lockup rules will allow.
    Chairman Issa. Okay.
    Mr. Doherty, you also obviously have an interest in 
absolutely, positively not being beat to the newsstand.
    Mr. Doherty. I would just repeat what Dan said. Our 
interest is to get the information out as quickly as we can to 
all of our clients within the rules of a lockup.
    Chairman Issa. And, Ms. Dalglish, you are sort of 
representing the umbrella here for a moment. Dr. Hall was very 
kind in saying that, one, most of the statistics actually just 
go out on the news wire; they are not important enough so they 
go out, everybody gets them at the same time and they look at 
them. But the most important are subject to this lockup, 
historically, until today.
    Let me ask you one question. If in fact the Bureau of Labor 
Statistics simply starting pumping this all out through their 
internet, wouldn't in fact it be worse for these most critical 
information because then the hedge fund with the best computer 
diagnosing what is very predictably exactly the same raw 
statistics would then make the decision on market interruptions 
and trade during those first few seconds?
    Doesn't the plethora of different news organizations, with 
different opinions, reporting in a different fashion, reaching 
sometimes different conclusions on raw data actually negate the 
advantage of a hedge fund, because ultimately looking at any 
one of these services doesn't guarantee him anything? Doesn't 
give him the wrong information as much as it gives him 
somebody's opinion. And isn't a dozen or a hundred opinions a 
better safeguard against a radical market move than a single 
piece of fact?
    Ms. Dalglish. Mr. Chairman, I really have to confess I 
don't know a lot about how hedge funds operate, but I can tell 
you that by having multiple news organizations in that lockup 
disseminating that information I believe there are safeguards 
for the public, and I also believe that the independence of 
those news organizations is a benefit to the public, rather 
than having the Government just being the only source of the 
information as it gets out, whether it be to the public or to 
the hedge funds. I think there is value in having multiple news 
organizations digesting and disseminating this information.
    Chairman Issa. And to the two news organizations 
represented here today, if you are given no tools, if you are 
given information in a short period of time basically to report 
what you are given, aren't you in fact an arm of propaganda? 
The difference between propaganda and independent news, isn't 
it the value added that your reporters can bring, either 
through their years of experience or, in fact, the information 
they bring in that helps them take raw data and turn it into 
opinionated factual news?
    Mr. Moss. Well, Mr. Chairman, the advantage of the lockup 
as it is currently run at the Department of Labor, and at 
Commerce, Agriculture, and agencies disseminating statistics 
around the world, is that it allows us to publish information 
with as much context and supporting data and as many 
superlatives as we can. What we publish at 8:30 sharp goes 
beyond one headline and one number; we endeavor to tell the 
story both behind the number, on top of it, and underneath it.
    Mr. Doherty. And I would just add that one important part 
that we didn't talk about, in the April 10th order that Labor 
put out, although we are in talks about changing this, is that 
there was no internet access at all, even in the half an hour 
or so that leads up to the lockup starting. That is important 
because it allows our journalists to do a variety of things, 
but one of those is to see what is happening around the world, 
and add that context. And even if it is breaking at the last 
minute, 7:45 that they are in the internet, and with everything 
happening today in the Euro zone, that sort of information is 
invaluable; it can really provide some context to the stories.
    Chairman Issa. Thank you.
    I recognize the Ranking Member for his questions.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Hall, it is good to see you again. I just want to make 
sure we are clear, because sometimes I don't want the wrong, 
inaccurate information to be in the headlines tomorrow. The 
Bureau of Labor Statistics is a nonpartisan statistical agency, 
is that right?
    Mr. Hall. That is right.
    Mr. Cummings. Did the Department, to your knowledge, and 
you just left. When did you leave the Department of Labor 
Statistics?
    Mr. Hall. In January of this year.
    Mr. Cummings. Yes. Did the Department of Labor or any other 
entity within government that is focused on the development and 
advancement of policy interfere with BLS's development of a 
methodology for counting green jobs?
    Mr. Hall. No, they didn't. They were very good about 
letting us do our work and staying at arm's length.
    Mr. Cummings. And as I listened to the testimony, clearly, 
I understand and sympathize with the news organizations. I 
understand exactly what you are saying. It seems like we have a 
question here of balance. Any time anything gets out of 
balance, you usually run into problems. But it appears to me 
that our security procedures are not equal to what technology 
can be used to do with the data. I think Mr. Hall described 
what happened, how this thing first came about 40 years ago, 
and now technology has changed dramatically since then. Would 
you agree with that, Mr. Hall?
    And then I will go to you, Mr. Moss.
    Mr. Moss. Congressman, the Department of Labor has a master 
switch that controls communications into and out of the room. 
No news headline or story can be published until the Labor 
official literally flicks that master switch at 8:30.
    Mr. Cummings. Mr. Hall, did you have a comment?
    Mr. Hall. Well, that is absolutely true. One of my 
concerns, though, and one of my concerns with the whole lockup 
room came from an extraordinary number of incidents out of the 
lockup room over the past few years that involved this sort of 
struggling with the technology coming out, and I do think that 
there is a need to sort of, at a minimum, really review the 
security in that lockup room.
    Mr. Doherty. Congressman, I would add that is why these 
discussions we have been having with the Labor Department are 
focused on that. They have needs and, as I said in my 
testimony, we understand they have the responsibility and the 
right to set up lockup rules. I think our view would be that 
the April 10th announcement, plan, whatever you want to call 
it, didn't strike that balance, and we are hoping to in these 
negotiations.
    Mr. Cummings. And I am hoping that that happens too, and I 
am going to urge the Secretary to try to move that along so 
that you all can come up with an agreement. Sometimes I think 
it is a matter of people sitting down and working out things. 
Not everything has to be legislated. As a matter of fact, it 
moves a lot slower sometimes when you have to depend on the 
legislature.
    According to a joint news statement issued on December 9th, 
2008, by the then Commissioner of Bureau Statistics, Keith 
Hall, and the then Assistant Secretary of Labor for Public 
Affairs, ``data from the November 2008 employment situation 
news report that was scheduled for release Friday, December 
5th, at 8:30 a.m. EST was inadvertently transmitted from the 
lockup facility approximately 25 seconds early.''
    The news release states that a similar early transmittal 
occurred on December 3rd, 2008, involving the data on 
productivity and cost. The news release clarifies that ``a wire 
service bureau chief informed us that his outlet had 
inadvertently released data from the lockup facility early to 
subscribers on both occasions'' and that the Department of 
Labor confirmed this claim. Finally, the news release states 
the early transmissions were accidental and followed a recent 
technical change in hardware configuration.
    Dr. Hall, you were Commissioner of the Department of Labor 
Statistics at the time these leaks occurred, is that right?
    Mr. Hall. That is correct.
    Mr. Cummings. What can you tell us specifically about how 
that occurred? In particular, how were the leaks accidental and 
what circumstances allowed such accidental leaks to take place?
    Mr. Hall. As I recall, the news agency was allowed access 
to the room without any BLS technicians, and they replaced a 
cable from their computer to that box, and it turns out that 
cable inadvertently bypassed the security on the box. And the 
company didn't mean to do that, they were just trying to 
increase their connectivity, I suppose. So since then we have 
tried very hard to, what we would still like, and this is why 
it is one of my proposals, to not let people into the room and 
mess with the equipment without a BLS technician there so that 
sort of thing doesn't happen----
    Mr. Cummings. And were those leaks detected at the time 
they occurred?
    Mr. Hall. They were not.
    Mr. Cummings. Mr. Doherty, you write in your testimony 
Thompson Reuters ``takes embargoes very seriously and we have 
always intended to comply with the Department's lockup 
procedures, but our company, after a hardware reconfiguration, 
did inadvertently uncover defects in the Department's equipment 
that resulted in two unintentional early releases of data from 
our machines and the Labor lockup in late 2008.''
    What can you add to what Mr. Hall said about how the leak 
occurred? Also, your statement indicates ``a defect in the 
Department's equipment resulted in two unintentional early 
releases.'' Was the fault in this matter with the Department or 
with your firm?
    Mr. Doherty. My understanding, and I wasn't part of this at 
the time, but my understanding is we did configure our 
hardware. My understanding is that the way that interfaced with 
the lockbox and how that was cabled at the Department led to 
the inadvertent releases. As I say, and Mr. Hall said, the 
first release wasn't detected by anyone, it certainly wasn't 
detected by us.
    The second we realized and immediately made that known to 
the Department. We worked with them to figure out what the 
problem was, a fix was implemented, and as I say in my 
testimony, we are aware of no other issues in the three and a 
half years since and the Department has 8 to 10 lockups a 
month, so that would be roughly 350 lockups or so since there 
was that problem.
    Mr. Cummings. One last question. Dr. Hall, as a former 
commissioner of the BLS, do you believe that the steps the 
Department of Labor announced to improve the security of 
economic data during the prerelease embargo period are 
necessary?
    Mr. Hall. I think most of them are necessary. The one 
aspect would be replacing the equipment. That is a pretty 
dramatic step. I do think that was worth considering and I do 
think that is a possible solution. I also think it is a 
possible solution to release the data on the website and then 
open up the lockup room so it runs a little bit behind the 
website so people get to write their stories and get it out, 
but there won't be quite such a rush to move trading from 
inside the lockup room.
    I am not sure for sure, I think it is something that should 
be done. I do think it should be considered and should be 
discussed.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Issa. Thank you. And just for the record, when 
these lapses occurred, who was president of the United States?
    Mr. Hall. I believe it was during the Obama administration. 
But we did have a lapse, to be fair----
    Chairman Issa. November of 2008, who was president?
    Mr. Hall. Oh, 2008, I'm sorry. It was the 2008 one. Yes, 
that was the----
    Chairman Issa. Okay, I just want to make sure that this is 
so long ago that President Bush is responsible for the leak and 
yet, three and a half years later, we have a fix proposed. I 
guess that is quick and dramatic action.
    Dr. Des Jarlais is recognized.
    Mr. Des Jarlais. Thank you, Mr. Chairman, and I really 
appreciate you holding the hearing on this topic right now. As 
everyone is well aware, this is an election year and I don't 
think that anyone who follows statistics doesn't realize that 
the number one issue facing our Country are jobs and the 
economy, and that is what people are looking to in leadership 
to make their decision this fall.
    So I think these numbers are extremely important and I 
think this hearing is very timely. The one thing the American 
people do agree on is that Congress is not doing a very good 
job, and I think their trust factor for Congress is very low, 
so the one thing they should get are the facts on these 
numbers. I often wonder why we focus so much on unemployment 
numbers rather than employment numbers, and I just wonder if 
anybody on the panel would have a comment why we don't look at 
employment numbers, the number of people actually employed.
    Mr. Moss. Congressman, that is an argument for allowing the 
news organizations to publish as much context, as much full 
information at 8:30 sharp as possible.
    Congressman, Mr. Chairman, and Representative Cummings, if 
I may return to a point that Dr. Hall made, he was talking 
about unauthorized access to the room----
    Mr. Des Jarlais. Mr. Moss, we will get back to that. I 
actually do have a line of questioning for all you.
    Mr. Moss. Excuse me.
    Mr. Des Jarlais. Okay.
    So, anyway, I just think that there is such a disparity in 
unemployment numbers, whether it is 8.2, who is unemployed, who 
is underemployed, and when we are talking about getting to the 
truth so people can make a decision on who they want to lead 
this Country, we should provide the facts to them.
    Mr. Moss, I will ask you this. On a scale of 1 to 10, how 
would you rate the Department of Labor's transparency in 
conducting the change to its lockup policy?
    Mr. Moss. Congressman, I am here as a journalist, not a 
mathematician. I would just say that it leaves a lot to be 
desired. The Department has relied on a Sandia report that has 
not been made available.
    Mr. Des Jarlais. Mr. Doherty, what would you rate that?
    Mr. Doherty. Well, again, I think, going backwards, based 
on what we have been able to achieve by having discussions, the 
discussions that we in the media have had with the Labor 
Department, I think everybody would have been better served if 
those discussions had taken place prior to April 10th, as 
opposed to in response to what was put out on April 10th.
    Mr. Des Jarlais. Okay. Well, again, with the uncertainty 
facing our Country and the importance for this transparency and 
these numbers, the Sandia National Labs was asked to review the 
Department of Labor's data security procedure.
    Mr. Moss or, actually, Mr. Doherty, is it correct that the 
Department of Labor is justifying the change to the lockup 
procedure by citing the findings of this National Lab report, 
Sandia?
    Mr. Doherty. Yes.
    Mr. Des Jarlais. Okay. Have you seen a full copy of that 
report?
    Mr. Doherty. I have not.
    Mr. Des Jarlais. All right. To your knowledge, has anyone 
outside the Department seen a full copy of that report?
    Mr. Doherty. I don't know, sir.
    Mr. Des Jarlais. Okay. In an Executive Summary, the report 
implies that organizations or news organizations like 
yourselves are adversaries to the Department of Labor. Do you 
believe that you are adversaries to the Department?
    Mr. Moss. I do not, sir.
    Mr. Doherty. Nor do I.
    Mr. Des Jarlais. Okay. Are you personally aware of any 
security deficiencies with the Department's lockup procedures?
    Mr. Moss. Congressman, this brings me back to a point I 
wanted to make in response to Dr. Hall, if I may.
    Mr. Des Jarlais. Okay. Yes, sir.
    Mr. Moss. Dr. Hall referred to one of the problems being 
unauthorized access to the room. That is an argument for the 
enforcement of an existing policy, not the replacement of that 
policy with something very draconian. Access to the room is 
supposed to take place with a technically proficient Department 
of Labor official, and we are comfortable with that.
    Mr. Des Jarlais. Ms. Dalglish, the Department of Labor's 
new policy for its lockup facility would require all reporters 
to use own government-owned and government-operated software, 
hardware, and wiring. Is this action permissible under the 
First Amendment?
    Ms. Dalglish. Dr. Des Jarlais, I don't believe so, and I 
think it raises substantial First Amendment problems. As you 
know, the First Amendment is designed to allow the press to 
operate independently. When you are using government-owned 
hardware and software, and you have no control over what it 
does and you have no knowledge of, perhaps, in an extreme 
circumstance, you don't know what they are able to monitor from 
your work. You don't know what they are taking; you don't know 
what they are putting into it. You have no control what goes 
out. I think it is a very frightening prospect.
    Mr. Des Jarlais. To your knowledge, do any other government 
agencies require reporters to use equipment, tools owned by the 
government?
    Ms. Dalglish. I can't think of one off the top of my head. 
It is possible, but I am not aware of one.
    Mr. Des Jarlais. Okay. So, in your opinion, this government 
ownership could be problematic for the freedom of the press?
    Ms. Dalglish. For freedom of the press and for the public's 
right to get independently gathered and digested and 
disseminated information.
    Mr. Des Jarlais. Thank you.
    Dr. Hall, as you probably know, the current head of the 
Office of Public Affairs, Mr. Fillichio, has not been confirmed 
by the Senate, as he is technically a senior advisor, do you 
recall if during the Bush Administration that position was 
occupied by someone who was Senate confirmed?
    Mr. Hall. Yes, I believe it was.
    Mr. Des Jarlais. Okay. Then, Dr. Hall, given the importance 
of these numbers, as I have talked about earlier, both 
economically and politically, do you think it is right that the 
process for the release is being overseen by a non-confirmed 
political appointee?
    Mr. Hall. No, I don't, and I think the most important thing 
is that BLS has the responsibility for security of the lockup 
room and for disseminating data with a level playing field, yet 
they don't have the authority to make changes because they 
don't run the lockup room.
    Mr. Des Jarlais. All right, thank you. And I thank you all 
for being here today.
    Mr. Chairman, I yield back.
    Chairman Issa. Thank you.
    With that, we go to the gentleman from Virginia, Mr. 
Connolly, for five minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    And thank you to our panel for being here today. I 
especially want to welcome Dr. Hall from the great university, 
George Mason University, in Northern Virginia, in my district. 
So we are delighted to have you here.
    Maybe, Dr. Hall, I could begin with you. I am listening to 
your testimony, and if I could infer from what you were saying, 
when you talked about how originally this process was 
established, the lockup, and the control of data, and reporters 
waiting at their trusty typewriter to get it out, I think you 
were leading us to believe that technology maybe has passed us 
by, and I am looking at, just as legitimately, I think, Ms. 
Dalglish has warned us about, gee, even with the best of 
intentions, government insisting on transfer to all of their 
technology and their government-controlled computers 
compromises the First Amendment rights of the fourth estate.
    Government also has a legitimate concern, after all, the 
media are profit-making entities that have motives that go 
beyond just the First Amendment sometimes. And I am reading 
from the executive summary of the Sandia report and it says, 
although DOL operations, BLS, and OPA personnel are doing due 
diligence in their efforts to monitor the press lockup 
facility, their efforts are complicated by the presence of non-
DOL IT equipment and communications lines in this facility. The 
opaque nature of this equipment and DOL operations, BLS, and 
OPA stakeholders is a major impediment to ensuring that embargo 
data are not released prior to authorization.
    In your opinion, Dr. Hall, from your experience, is that a 
legitimate concern?
    Mr. Hall. Yes, it is.
    Mr. Connolly. So we have to balance that with the 
legitimate First Amendment concerns we have heard here from the 
three witnesses on your right.
    Mr. Hall. Absolutely.
    Mr. Connolly. And might that be the motivation of the 
Department of Labor in these new regulations? I will withhold 
judgment as to whether they went too far or whether better 
notification could have been given and whether the press should 
have been brought in earlier to dialogue about that. But that 
might have been their motivation, not the hobnail, voodoo 
government on the necks of the media trying to strangle the 
First Amendment.
    Mr. Hall. Sure In fact, I absolutely support generally the 
recommendations. The only thing about the IT equipment, I think 
it is worth considering having government equipment in there, 
but I think it probably should be studied a bit more. I happen 
to think that there is a bigger policy issue here for the 
Federal statistical agencies. They need to decide whether or 
not it is advisable to have trading come out of lockups. And I 
think that question needs to be----
    Mr. Connolly. Do we even need a lockup? I mean, given 
technology, why have a lockup at all? There is no First 
Amendment right, I might add, to being in a lockup.
    Mr. Hall. That is right.
    Mr. Connolly. But why have one at all? Why not just post 
something on the Web at 8:30 and everybody can have at it?
    Mr. Hall. No, absolutely. I think the issue at least for 
BLS is we want to disseminate the data and we want to give 
people a chance to write accurate stories and be able to ask 
questions and get those stories right. That was originally the 
idea of the lockup. But you are absolutely right. In fact, like 
I said, most economic data is in fact just put up on the Web.
    Mr. Connolly. I think the inference to be drawn from your 
testimony is that is where you were leading us, from that 
typewriter to today's fast-moving, 24/7 news world with the 
technology advancing. Might the Government have enough concern, 
and that is that leaks or unfair advantage to somebody in terms 
of information is enormous power?
    I am looking at a letter, for example, that was submitted 
by the Republican ranking member of our counterpart committee 
in the Senate, Senator Collins of Maine, writing to Secretary 
Solis expressing concern about the unusual trading activity 
reported in the Wall Street Journal just prior to the release 
of the unemployment data in the month of May. Is that also a 
legitimate concern of Government, that, gee, we don't want to 
somehow give an unfair advantage to somebody that might move 
markets, fairly or unfairly, and do damage in a broader 
economic sphere and favor one entity over another? Does the 
Government have a legitimate concern about that?
    Mr. Hall. Oh, absolutely, and that is one of the principles 
for a statistical agency, is to help do its best to create a 
level playing field and not have that happen.
    Mr. Connolly. Final question. We heard the testimony of 
your seatmate there on the left, Ms. Furchtgott-Roth. When you 
were at BLS, did you see untoward and capricious interference 
by the Department of Labor forcing you to redefine existing 
jobs arbitrarily as green?
    Mr. Hall. No, not at all.
    Mr. Connolly. Not at all? I thank you. My time is up.
    Chairman Issa. Thank you.
    We now go to the gentleman from South Carolina, Mr. Gowdy, 
for five minutes.
    Mr. Gowdy. Thank you, Mr. Chairman. I would yield my time 
to the Chairman, who is so well versed in all the issues 
related to this hearing.
    Chairman Issa. You are too kind. You are going to go a long 
way on this Committee.
    [Laughter.]
    Chairman Issa. Ms. Furchtgott-Roth, I don't think I heard 
you say that this was about interference. I think that your 
statement, and we have a second panel, had to do with the fact 
that a substantial number of what Dr. Hall put out, this 3.1 
million green jobs, are in fact jobs that have been around for 
generations. Isn't that true?
    Ms. Furchtgott-Roth. Yes.
    Chairman Issa. I mean, septic tank cleaners, in fact, are 
not a new profession, is that right?
    Ms. Furchtgott-Roth. Yes. In fact, the Federal definition 
of green jobs was under Title X of the Energy Independence and 
Security Act of 2007, which was signed into law by President 
George Bush, which gave BLS the instruction to do this. But, 
nevertheless, it does result in relabeling of jobs. Someone who 
is putting in a low-flow toilet, for example, that is a green 
job. A regular toilet is not a green job. What we need to be 
focusing on is just creating jobs. This is not something we 
should be worrying about.
    Chairman Issa. Dr. Hall, I think the reason that there is 
controversy about the green jobs is, in fact, a lot of them 
came out of ``stimulus money'' and the claim that stimulus was 
working included the claim of those green jobs. Wouldn't you 
agree that, as an observer, that was a lot of where your 
information got used?
    Mr. Hall. It seems that way, yes.
    Chairman Issa. Okay, so one of my questions, and probably 
the most important question, is if I relabeled all of these 
jobs, since most of them, such as diesel repair person 
repairing a mass transit bus, since that was a green job 50 
years ago, wouldn't it be fair, if we wanted to get accuracy, 
that we would go back all those generations and we would simply 
have this rise and fall of, as close as we could, the same job 
year over year? So wouldn't we have found, as a result, that at 
the beginning of this recession we lost green jobs?
    Mr. Hall. Absolutely, it is quite possible. A new data 
series doesn't really tell you about the past, so you really 
don't get an idea of what has changed over time.
    Chairman Issa. So the, if you will, propaganda value or the 
disingenuous part of green jobs is we are not talking about the 
fact that green jobs undoubtedly, since it includes welders 
and, like I say, people that empty septic tanks and people who 
mill wood, since there were jobs lost in those areas, we lost 
those jobs and then we got them back. So when you score 3.1 
million new jobs, some of those are jobs that undoubtedly were 
lost and then reclaimed.
    Mr. Hall. Oh, absolutely.
    Chairman Issa. Thank you.
    Mr. Moss, I am going to return to a line because this is 
the committee of transparency and it is the reason that we will 
continue having not only these hearings, but we will continue 
to push to not have the kind of behavior, and I can't remember 
what the gentleman of Virginia used in relation to boot, but 
his allegation, but the press historically gets treated one 
way. When the press gets changed to another way and you feel it 
impinges on your freedoms, isn't that in fact at the core of 
where the press must push back and force government to justify 
two things: one, the need to do it and, two, pursuant to the 
First Amendment, the right to do it?
    In this case, haven't they failed both tests? They failed 
to give you the specific need of why they needed to do it and 
they certainly have not shown where the specifics of forcing 
you to use government equipment, government lines, bring in no 
key fobs, et cetera, et cetera, and, of course, then have the 
access to your typed material on their computers so they can 
look at your material later if they choose to, hasn't that in 
fact crossed that First Amendment question, as well as the not 
stating the need?
    Mr. Moss. Mr. Chairman, the DOL, in its discussions with 
the media, has highlighted the need for security. We understand 
that. It is our belief, based on some of the proposals we have 
discussed with the DOL, that the stated concerns about security 
can be addressed and the media's First Amendment rights 
protected. We have had some productive discussions. There are 
some areas where we are close. We are not there yet.
    Mr. Chairman, may I just make two quick points in response 
to Congressman Connolly's remarks?
    Chairman Issa. Of course.
    Mr. Moss. Firstly, regarding Dr. Hall's response to your 
question, sir, he said that some efforts had been complicated 
by non-Department of Labor lines. Again, that is an argument 
for enforcing the existing policy.
    The other point I would make, sir, and Mr. Chairman, is 
that under the proposals that we are currently negotiating with 
the Department of Labor, Department of Labor technical staff 
will be able to install equipment that is owned by the news 
organization.
    Chairman Issa. If I could ask unanimous consent for just 
one more question, because Mr. Doherty--thank you.
    Mr. Doherty, you have been involved and are more 
knowledgeable of the negotiations. At a minimum, wouldn't the 
government be able to ``specify'' and approve equipment coming 
into the lock area, rather than, say, as Sandia apparently says 
in this confidential finding, that they can't know? In fact, 
isn't it something where part of the negotiations could be that 
they will approve and specify in advance any equipment coming 
in? Doesn't the government effectively have that ability to 
negotiate what comes into the room, thus never being surprised 
that they didn't know what you were using?
    Mr. Doherty. Yes, and that is part of our discussion.
    Chairman Issa. Thank you.
    With that, we go to the gentleman from Massachusetts, Mr. 
Tierney, for five minutes.
    Mr. Tierney. Thank you.
    Thank you all for your testimony here this morning. I want 
to follow up on something that Mr. Connolly was following on 
that. There was an op ed recently by a financial advisor, 
former journalist named Larry Elkin. Some of you may have seen 
it. He said that outfits such as Bloomberg, Dow Jones, and 
Reuters compete fiercely for subscribers who pay a lot of money 
for split-second access to market-moving information.
    So, Mr. Doherty and Mr. Moss, who receives the first access 
to the reports on employment data from your outlets, is it the 
general public or is it subscribers to the service that you 
offer?
    Mr. Moss. Subscribers to the Bloomberg Professional Service 
are included in the public, sir.
    Mr. Tierney. Thank you.
    Mr. Doherty?
    Mr. Doherty. The same with us, sir. And it should be noted 
that everything goes out at 8:30 at the same time, so whether 
it is a story or a table or data, it all leaves the lockup at 
8:30, or whenever the Department of Labor pushes that switch.
    Mr. Tierney. Are there any incentives, do you think, for 
some people, at least, to try to get that data out a split 
second earlier than their competitors? It seems there is a lot 
of money moving around. If somebody could do that, there would 
be a certain advantage to that.
    Mr. Moss. Congressman, right now the Department of Labor 
has a master switch----
    Mr. Tierney. No, no, I understand that. What I am asking 
you is the more general question: Is there a real concern that 
if somebody were to get that information out quicker than 
others, they would have an unfair advantage?
    Mr. Connolly. Would my colleague yield?
    Mr. Tierney. Yes.
    Mr. Connolly. I would just point out that Mr. Doherty 
testified a little earlier ``we want to get that information 
out as fast as possible to our clients.''
    Mr. Tierney. Of course. And that is the only point I am 
trying to make. There is an advantage of getting it out 
quickly. If you get it out quicker than your competitors, that 
is a good thing for you.
    Mr. Doherty. Absolutely. But as I said earlier, as well, in 
that earlier response, everything that we do needs to be done 
within the rules.
    Mr. Tierney. Obviously.
    Mr. Doherty. And as has been said a couple times, DOL has 
control----
    Mr. Tierney. I think one of the important points that Mr. 
Connolly made was that the Department of Labor isn't under any 
obligation to provide prerelease access at all, correct? There 
is no legal or constitutional requirement that the Department 
of Labor issue that information prematurely or earlier than one 
fell swoop.
    Mr. Doherty. That is correct. But as we said earlier, we 
think lockups are important.
    Mr. Tierney. But I think they do that and I think The 
Office of Management and Budget made clear they do it because 
they think there is a value in fostering improved public 
understanding of the data and that there is a value to having 
accuracy for any initial commentary, and that, I think, you 
folks agree with, right?
    Mr. Moss. Congressman, if I may.
    Mr. Tierney. Briefly, please.
    Mr. Moss. Our attorneys have looked into this question, 
because it is something that the DOL has brought up in our 
discussions. It is our belief that once a agency establishes a 
policy that affects a substantive right, in this instance the 
First Amendment, an agency cannot arbitrarily change that 
without due process of a proper notice and comment period.
    Mr. Tierney. That is not the question. The question was 
whether they were under any initial obligation to share it at 
all. They can go through their due process and come back to the 
point that they are just going to issue it once and everybody 
is going to get it, and that is it, without any prerelease 
information. I don't think there is any disagreement with your 
lawyers or any other lawyer on that.
    But I agree with you, what you are working for is a process 
that strikes the balance that Mr. Cummings was talking about, 
one that allows for securing it so nobody gets an unfair 
advantage and one that makes sure that you get that ability to 
have a better public understanding and more accuracy in your 
initial commentary. You have been working towards that with the 
Department, have you not?
    Mr. Moss. We have, sir. The discussions have been 
productive.
    Mr. Tierney. Exactly. I guess that is my next point, that I 
think you have indicated that you have held a series of 
constructive meetings, Mr. Doherty, and you were left 
optimistic that you are going to be able to agree on procedures 
and policies, is that right?
    Mr. Doherty. We are hopeful that we will finish it, yes, 
sir.
    Mr. Tierney. Mr. Moss, you said that even as you prepared 
the testimony today, the media and the public interest groups 
appear to be making progress. Do you agree with that?
    Mr. Moss. We are not there yet, but we have made progress.
    Mr. Tierney. So the current status is that you are almost 
there. Have you got an agreement in principle?
    Mr. Moss. I am not sure I would say we are almost--well, I 
think we are getting close on some issues, sir.
    Mr. Tierney. And have you agreed to ensure security and 
still try to allow you to choose your own hardware and 
software?
    Mr. Moss. Those are amongst the proposals we have made.
    Mr. Tierney. Okay. And that proposal also would be the 
Department would still control the physical access to the 
hardware?
    Mr. Moss. They would install it and manage it.
    Mr. Tierney. Okay. And if that agreement were to go into 
effect, would that allow you to continue to prepare your news 
reports and statistical data appropriately? Would that be a 
direction in which you would want to move?
    Mr. Moss. There is no--sir, at the moment, there is no 
formal comprehensive agreement----
    Mr. Tierney. But there is one that you are working on, 
right?
    Mr. Moss. If we were to work toward and arrive at 
something----
    Mr. Tierney. Well, how close are you? How close are you?
    Mr. Moss. On the technical issues?
    Mr. Tierney. Yes.
    Mr. Moss. I am told we are close. There are some issues 
that DOL has said they would get back to the news services on. 
We are awaiting DOL comments on rules of the lockup.
    Mr. Tierney. And are you feeling good; all parties are 
working in good faith?
    Mr. Moss. I do believe everyone is working in good faith.
    Mr. Tierney. Good. Okay, thank you.
    I yield back, Mr. Chairman.
    Chairman Issa. I guess I will go to the gentleman from 
Pennsylvania, Mr. Kelly.
    Could you yield to me for just one second?
    Mr. Kelly. Certainly. Go ahead, Chairman.
    Chairman Issa. Mr. Moss, Mr. Doherty, were those 
discussions fruitful during the period prior to this Committee 
taking a direct interest in it? Were you having the same level 
of discord, where you were resolving that an arbitrary rule 
perhaps wasn't going to be the final judgment?
    Mr. Moss. Congressman, it is my understanding that the 
interest of the Committee has been vital in that process.
    Chairman Issa. Thank you.
    Mr. Kelly.
    Mr. Kelly. I thank the Chairman.
    One of the things that I have been looking at, I try to 
look at the statistics and I know that what I did previously 
was in the automobile business, and we always looked at markets 
and we looked at markets that were available to us, and we kind 
of looked at the definitions and then we looked at the 
statistics, but they only mattered if they were actually 
accurate and they actually had some type of credibility.
    And my questions come on the green jobs initiative. I am 
trying to understand, Dr. Hall. Does BLS not count blue collar 
jobs or white collar jobs, but BLS was asked to begin counting 
green jobs? Now, do you believe that BLS was asked to begin 
counting green jobs for political reasons?
    Mr. Hall. I think it was for policy reasons. I think there 
was a good deal of interest in green occupations and I think 
there was clearly going to be some policy, at least policy 
debates on the issue.
    Mr. Kelly. And I understand that. So in order to give 
credibility to the policy, then we had to come up with metrics 
that made sense. So when you talk about green jobs that were 
created, do you think we have actually done a great job with 
that? Has there been a good, positive ROI?
    Mr. Hall. Well, I think part of the issue is that BLS was 
not trying to feed into a particular policy. It didn't have 
policies in mind. And they took two approaches: looking at 
green industries and then green occupations. I think part of 
the problem is those two things get mixed.
    But what they were trying to do was they were trying to be 
helpful. We were trying not be helpful. We were trying to make 
a definition, a fairly broad definition so that people could 
use this data, people could even make up their own definitions 
of green jobs--there were a million definitions around--and use 
the data to piece together their own definitions and use that 
for policy.
    Mr. Kelly. I understand that. But whenever you change the 
definition of what a person is doing and you game it or shade 
it so that the answer that you are looking for can be supported 
by data that you very carefully craft to come up with the 
answer that you want, and that is the problem that I have with 
this. I am trying to understand it. If we are really looking to 
develop policies or develop the future of the Country and say, 
boy, there is a great jobs market out there, and a guy that 
drove a bus before, if he went from driving a regular fuel bus 
to a propane bus, we created a green job. We didn't create a 
job, we just shifted a person from one category to another.
    And I think for people like me, I think you want to see 
some type of positive return on your investment, and I get the 
feeling that a lot of what we are looking at was a policy that, 
while it was well intended, hasn't really created the jobs that 
the Administration thought it would create. I have no problem 
with that; I have made a lot of mistakes in my life. The only 
thing is I just didn't keep on that path if I thought it was 
wrong. And the reason I couldn't do it is because I was using 
my own money.
    But this has been very bothersome to me. So tell me how do 
you get from one position to another position and say, well, 
this supports what it is that we are doing? That is, I think, 
the problem that the American people have with this. Because if 
we are truly talking about creating jobs, if we are talking 
about making an environment that is more conducive to creating 
jobs, this doesn't do it.
    Mr. Hall. Right. I think the first thing I would like to 
say is one of the things I learned quickly when I was at the 
Bureau of Labor Statistics is you can produce the best data you 
want, the best data you can and explain it, but you can't 
control how people use the data. They are going to use it 
however they are going to want to use it. And that is true with 
all BLS data. In fact, my big goal was that we at least make 
sure that when people use the data, they know when they are 
using it wrong, even if they want to go ahead and use it wrong 
to begin with. So that is sort of an impossible thing for BLS 
to sort of control.
    Mr. Kelly. Ms. Roth, how do you feel about that?
    Ms. Furchtgott-Roth. Well, first of all, I am an economist, 
so I don't feel. But looking at the numbers----
    Mr. Kelly. Well, let me put it this way. As an American 
taxpayer, because that is what we all are, regardless of 
whether you are sitting up here or you are sitting down there, 
we are responsible to people to pay all these bills as 
hardworking American taxpayers. So I have to tell you how I 
feel, and I feel at times that we are so separated from reality 
in this town, I need to know, okay, you use whatever term you 
want to use, but what is the result of this? Do we have any 
positive answers?
    Ms. Furchtgott-Roth. No. No. I think the whole concept 
doesn't make sense. For example, in the transportation area, 
buses and trains are green jobs, but taxis are not green jobs. 
But sometimes it makes more sense to be able to take a taxi, 
rather than build an expensive rail line. So there isn't any 
point in adding any of these together. Or science museums, for 
example, vis-a-vis another museum. A science museum is a green 
job; another kind of museum isn't a green job. The American 
people want just jobs, and I don't think they mind if they are 
green. With unemployment over 12 million, with the unemployment 
rate above 8 percent for over three years in a row, we just 
need lots of regular jobs. We shouldn't worry about whether 
they are green, blue, red, whatever.
    Mr. Kelly. Well, we are looking for red, white, and blue 
jobs; it doesn't have to be any other color than that. I 
appreciate your answers and I yield back, Mr. Chairman. Thank 
you.
    Chairman Issa. I thank the gentleman.
    With that, we go to the gentleman from Missouri, Mr. Clay, 
for five minutes.
    Mr. Clay. Thank you, Mr. Chairman. Le me start with Dr. 
Hall.
    Doctor, can you describe the work that went into developing 
the BLS's methodology for counting green jobs and what were the 
expert sources the BLS consulted when developing this 
methodology for counting green jobs?
    Mr. Hall. Sure. First, let me say that the folks at BLS are 
experts in conducting surveys and collecting data, they are not 
experts in what is green and what is not green. So BLS spent a 
good deal of time talking with Federal agencies who are 
involved with green things, I guess; spent some time looking at 
how some of the States are defining green jobs and found how 
they were finding it useful, and with the private sector.
    So the idea was to sort of try to vett ideas on what should 
or shouldn't be included in green jobs and come up with a 
definition that was sort of--that had some logic to it. But I 
will say, though, one thing that is pretty clear is that there 
is no one definition; there is clearly an arbitrariness to it 
at some point. I thought it was important, and I think we did, 
we erred a little bit on the side of broader, because our goal 
was to be useful to people. We weren't thinking of ourselves as 
being the definitive folks who determined what is green and 
what is not green.
    Mr. Clay. And let's be clear that the Department of Labor 
Statistics is a nonpartisan statistical agency. Did the 
Department of Labor, or any other entity within government that 
is focused on the development and advancement of policy, 
interfere with the BLS's development of the methodology of 
counting green jobs?
    Mr. Hall. No, they did not. In fact, we went to some of the 
agencies to talk with them about what they thought maybe should 
be in a green job or considered a green job or not, but it was 
entirely up to BLS as to what to include or not include.
    Mr. Clay. Ms. Roth, you evidently do not agree with the 
Federal policy to promote renewable energy technology or invest 
in green jobs, but, as you know, today's hearing is not about 
that policy. The hearing title plainly says that the hearing is 
about DOL's reporting of jobs figures, which includes the 
definition and the number of green jobs calculated by the 
Bureau of Labor Stats. On that topic----
    Chairman Issa. Would the gentleman yield?
    Mr. Clay.--what you----
    No, I am not going to yield. Let me finish my question.
    Chairman Issa. I just don't think you intended to disparage 
the lady's intent. That was the only reason----
    Mr. Clay. No, no. No. Let me----
    Chairman Issa. I thought you couldn't have meant that.
    Mr. Clay. Mr. Chairman, can I get some more time? Thank 
you.
    On that topic, this is what you say in your testimony: 
Federal and State governments re-label existing jobs in an 
attempt to convince themselves and the public that such jobs 
exist. This entire exercise is an attempt to justify government 
initiative.
    You have heard Dr. Hall testify that the BLS, which he led 
as a President Bush appointee until recently, is an independent 
statistical agency, not influenced by politics and 
disinterested in policy formation. Yet, you accuse BLS in 
engaging an attempt to justify government initiative.
    Ms. Roth, did you mean to accuse Dr. Hall and the BLS of 
engaging in the biased activity of promoting certain policies?
    Ms. Furchtgott-Roth. Well, I would say that Dr. Hall is my 
very good job, and I would not want to accuse him of anything 
other than trying to do the utmost good with the data. But I 
think before you came in I showed this cup here, which says 
``The power to save energy.'' And this fits in with a 
definition of green jobs: environmental, compliance, education, 
training, and public awareness. It is ludicrous to say that 
there are more jobs created because we are drinking out of 
these cups than if we were drinking out of plain white cups.
    We should be concerned with increasing employment in the 
United States. We, taxpayers spend a great deal of money, they 
pay a great deal of money, and they should get the best value, 
and the best value should be job creation as a whole, rather 
than dividing the jobs into green jobs and other jobs.
    Mr. Clay. Now, do you have any anecdotal evidence of where 
it has just been a huge boondoggle? I know in Missouri we have 
a certain wind farm that was created by one of the President's 
bundlers. Could you point to something like that and say there 
has been no jobs created? Do you have any anecdotal evidence to 
that?
    Ms. Furchtgott-Roth. Well, there is Solyndra, a company 
that received----
    Chairman Issa. I would ask the gentleman have an additional 
15 seconds. Without objection.
    Mr. Clay. Thank you.
    Ms. Furchtgott-Roth. There is Solyndra, that received $535 
million and then went bankrupt. You had a hearing last month on 
Bright Source Energy that showed involvement in the highest 
levels at the White House and the approval of that loan 
guarantee. These are all green jobs. Meanwhile, coal is not 
green, but employs many, many Americans. We have 200 years of 
inexpensive natural gas that we could be mining and giving 
Americans lower household utility bills. Wind and solar might 
be green jobs, but they result in high electricity bills for 
households.
    Mr. Clay. What about the Keystone pipeline, would you count 
that as green jobs?
    Ms. Furchtgott-Roth. I would say this is something that 
should be approved so that we can bring more oil down from 
Canada----
    Mr. Clay. Would that be characterized as a green job?
    Ms. Furchtgott-Roth. Under BLS, would you think a pipeline 
would be a green job?
    Mr. Clay. No, no, I am asking you now.
    Ms. Furchtgott-Roth. I don't know that--I believe that 
construction of the Keystone pipeline would not be a green job, 
even though it would create more jobs for our refineries in the 
Gulf of Mexico.
    Mr. Clay. Thank you.
    Chairman Issa. We now go to the gentleman from New 
Hampshire, Mr. Guinta. Could you yield to me for just 10 
seconds?
    Mr. Guinta. I would be happy to.
    Chairman Issa. Thank you.
    I might make note that Hilda Solis, now the Secretary, was 
a sponsor of the Count Green Jobs bill, which got put into the 
act. So the very idea that this is not political, when in fact 
our former colleague is responsible for it and now oversees, 
making sure that the numbers come out. I think we have to be 
honest; it is all about politics, it has always been all about 
politics. And to answer your question on pipeline, quite 
frankly, the President was standing in front of green empty 
pipelines when he went to Oklahoma, so they probably would 
count as green just because of the color of the pipelines.
    Mr. Clay. Mr. Chairman? Mr. Chairman?----
    Chairman Issa. With that, we go to--it is the gentleman 
from New Hampshire's time.
    Mr. Tierney. Would the gentleman from New Hampshire yield 
to me for 15 seconds?
    Mr. Guinta. No, thank you, I do need to get to my 
questions. So I appreciate the Chairman yielding me back the 
time.
    I am glad we are actually having this discussion, and I 
wanted to address my comments and questions to Ms. Furchtgott-
Roth. I personally believe that there is some politicism in 
this particular issue. Other people may disagree, and they are 
fair to have their point of view and their perspective, and I 
respect that.
    But you said something in your earlier testimony that I 
think is very important. Why distinguish a green job from a 
job? A job is a job is a job, and we are in an economic climate 
where we just saw our job growth for the last month at 69,000. 
The unemployment rate has now jumped a tenth of a percent, and 
we have CBO estimates that they could meet or exceed 8.5 
percent by the end of the year. So people at home, at least in 
New Hampshire, aren't distinguishing between a green job or a 
job. What they are looking for is a career.
    So, to that end, the Department of Labor receives a $500 
million grant in stimulus funds to train workers in green 
skills. I probably would not have done that had I been in the 
position to make that decision, but that being said, the $500 
million was appropriated. I think we have 189, somewhere around 
there, different programs that we are now training for careers 
in this related field.
    I guess my question to you would be has there been an 
economic benefit to these green job training? Have we seen a 
demonstrable or have we seen a specific economic benefit to our 
economy?
    Ms. Furchtgott-Roth. I would say that there has been 
practically no benefit to the green jobs training. The 
assistant inspector general at the Department of Labor 
testified in June 2011 that, at that time, there were only 
1,366 green jobs trainees that had been in their jobs for six 
months afterwards, which was a very low return. The cost was 
over $100,000 per job trained.
    If you want to look at where there is low unemployment, you 
look at North Dakota, with an unemployment rate of 3 percent, 
the lowest in the Country. There is a boom because of fossil 
fuels, hydro-fracking, natural gas development, and I believe 
there are very few--I don't know of any green job trainees in 
North Dakota. But there is so much business you can't even get 
a motel or a hotel room there. The same with Eagle Ford, south 
of San Antonio in Texas.
    Mr. Guinta. And then of the people who were trained, do you 
have a percentage or a number as to how many of those were 
people currently employed or incumbent employees?
    Ms. Furchtgott-Roth. I do not have that percentage offhand, 
but I could get back to you on that.
    Mr. Guinta. Would it surprise you if it was about half?
    Ms. Furchtgott-Roth. That would not surprise me.
    Mr. Guinta. Okay. And then, finally, do you have, or if you 
don't have it here, how could we find--I am curious to know, of 
the people who were trained, how many of them actually are now 
working for an employer that got a DOE loan?
    Ms. Furchtgott-Roth. I don't have that information with me, 
but I could look for it and see if it is available and get back 
to you.
    Mr. Guinta. That would be wonderful, and I would yield back 
the balance of my time to the Chairman.
    Chairman Issa. Would the gentleman yield?
    Mr. Guinta. Yes, please.
    Chairman Issa. Back to that point, though, we are not 
debating green jobs; we are debating whether in fact what they 
are calling green jobs are green jobs here. If you drive a bus, 
you have a green job. If you sell used sporting goods, you have 
a green job. If you do--well, we already went through this--
septic tank emptying, it is a green job. If you work at the 
Salvation Army recycling clothes, it is a green job.
    No problem with any of these, but when people say there 
have been 3.1 million green jobs produced, aren't they, in 
fact, talking about jobs that have been around since before 
anyone in this room was born, and, in fact, those jobs rise and 
fall and have very little to do with anything unless you look 
at them in context over a long period of time with a same job 
analysis, as an economist?
    Ms. Furchtgott-Roth. That is correct, yes. The science 
museums were in place beforehand; now they are labeled green 
jobs, so they are part of this green job creation, even though 
they were there beforehand. The same with the cup 
manufacturers; they just didn't put this log on the cup.
    Chairman Issa. Thank you.
    The gentlelady from California, Ms. Speier, is recognized 
for five minutes.
    Ms. Speier. Thank you, Mr. Chairman.
    I am pretty perplexed by this entire discussion, and maybe 
you on this panel can shed some light. What happens with this 
lockup is that you get information at 8:00, you have a half 
hour to digest it, and at 8:30 you release it to your clients 
and to the public. That is how I understand it. And all of the 
time, effort, money, extra efforts, extra expenses that go into 
creating this lockup could be erased if we just had the 
Department of Labor issue these statistics at 8:30, you then 
digest it, and rather than get the information at 8:30, the 
traders on Wall Street get it at 9:00. And what have we gained 
or lost as a result of that?
    I would suggest that this is all about what works for Wall 
Street, and I would like to ask a question of the two 
representatives from Bloomberg and Reuters, Mr. Moss and Mr. 
Doherty. Why would anyone subscribe to your newsletters if they 
weren't getting some benefit in terms of accessing information 
before the public? In response to one question asked earlier, 
you said that your information is provided to your clients and 
to the public at the same time. So could you answer for me why 
would anyone subscribe to your newsletters if they are not 
getting some kind of advantage?
    Mr. Doherty. Well, you know, how we send it out is one 
thing, and, as I said, everything goes out at 8:30. How people 
receive it and use it is totally up to them. So as to how they 
would use it, that is where the benefit would come in. As I 
mentioned earlier, the information does go out to a variety of 
places; it would go out to people on Wall Street, and not just 
Wall Street, but the financial community worldwide. It would 
also go out to media clients, who can use it on their websites. 
It also goes out to the consumers via Reuters.com. But I think 
the idea is how people use that information once they have it 
is what the difference is.
    I would say, to your comment, that if BLS or the Department 
of Labor put things out at 8:30, it wouldn't be things to the 
general public; people would be grabbing that information and 
putting it out as quickly as they could, and without the 
benefit of having had that half hour to digest it and make some 
judgments as to the importance of the data.
    Mr. Moss. This is not just about Wall Street. Our 
subscribers throughout the Country and throughout the world 
include people managing the pension funds of teachers and 
firefighters; they include universities and other places of 
higher education; they include philanthropic ventures; they 
include coffee makers; they include airlines.
    Ms. Speier. It is all about making money, though, isn't it?
    Mr. Moss. Our concern here is about ensuring that the 
public continues to receive something that they have been 
receiving for more than a decade and that the public is fully 
informed and able to make its decisions accordingly, remains 
fully informed.
    Mr. Doherty. And I would say----
    Ms. Speier. I still would like an answer to the question 
why should I subscribe to your service if you are presenting it 
to the public and to your clients at the same time.
    Mr. Moss. If you have an interest in economic statistics 
and the full context, not just what the unemployment rate is or 
what the payroll creation or the structure may be in any 
particular month, then you want a news service that provides 
you with as much context, analysis, and data as possible. The 
lockup facilitates the transmission of just that at 8:30 sharp.
    Mr. Doherty. And I would say, in terms to your point, 
people subscribe to us for a variety of reasons. People can get 
our coverage of Congress, of the White House on the Internet as 
well, but other people do pay for that coverage.
    Ms. Speier. I will yield the rest of my time to Mr. 
Tierney, if he wanted to ask that additional question
    Mr. Tierney. Thank you very much. I knew the Chairman 
really wanted to do that because he had about 8 minutes extra, 
and I knew he wanted to give at least half a minute to another 
member of the panel, so I thank you for doing that.
    I make a point here, just that the Green Jobs Act, which 
Ms. Solis cosponsored with me, was not about creating jobs, it 
was about training people with the skills and education needed 
to take the jobs that were created. So I just didn't want to 
conflate the two and I want to make that distinction on that.
    Also, there have been about 100 new renewable energy and 
energy efficiency manufacturing plants that opened up in this 
Country since 2009, a number of them in my district, that were 
telling us they needed people able to do those jobs and asking 
for that job training program. So I make that distinction on 
that.
    And I guess the only ones not interested in making sure 
that the green energy and energy efficiencies industries thrive 
at the Republican party, because I note the emphasis the 
Department of Defense is putting on green energy right now for 
a number of reasons, safety of our troops being one----
    Chairman Issa. The gentleman will suspend.
    Mr. Tierney. I thought you might want to finish that.
    Chairman Issa. Pursuant to the rule, as you know, you may 
do a great many things; you may not disparage the intent of 
members of either party or any individuals here.
    Mr. Tierney. Did you feel disparaged, Mr. Chairman?
    Chairman Issa. To make a comment about the intent----
    Mr. Tierney. Well, I am asking you to clarify. Did you feel 
disparaged?
    Chairman Issa. Yes, I did.
    Mr. Tierney. And how did you feel disparaged?
    Chairman Issa. For the same reason that when the gentlelady 
just down the dais went to the Floor for a long period of time, 
if the gentleman would please refrain from violating the rules 
of the House.
    Mr. Tierney. Well, help me out here. Tell me how you felt 
disparaged.
    Chairman Issa. The gentleman may continue for his 15 
seconds.
    Mr. Tierney. I have had my 15 seconds, but I would use the 
rest of it to yield to you to tell me how you felt disparaged.
    Chairman Issa. To allege that we don't care about energy, 
when in fact what we are seeing is people emptying sewage out 
of porta-potties being counted as green jobs is in fact----
    Mr. Tierney.--personal issue by you, is that correct?
    Chairman Issa. You disparaged----
    Mr. Tierney.--about seeming that the Republican party----
    Chairman Issa. You disparaged the Republican party. The 
gentleman's time has expired.
    We now go to the gentleman from North Carolina, Mr. 
McHenry, for five minutes.
    Mr. McHenry. Well, I can't follow up those fireworks.
    Chairman Issa. Don't try.
    Mr. McHenry. I won't, Mr. Chairman. I do respect--I try to 
respect my colleagues, even if they are wrong. But the 
question--in North carolina----
    Dr. Hall, you might be the right person for me to ask, 
based on your experience with BLS. I am deeply concerned about 
our statistical agencies. We should be a light for the rest of 
the world on how governments keep track of data, whether it is 
labor statistics, whether it is our census, whether it is these 
very key, important pieces of data that we need to have very 
clear understandings of strikes and balls, you know, the whole 
thing. So I am very concerned about both the strength of that 
data and the independence of it, and then making sure that 
release is done well and correctly, the public has this 
information.
    My colleague asked about why you would subscribe to 
Bloomberg or Reuters, or whatever these different services are, 
and I subscribe to a whole variety of services in my office so 
I can have data assembled in a way that I can consume it better 
than maybe what is on the website. Maybe putting 50 pieces of 
data together that are all publicly available and giving you 
good analysis. I think the free market works in that regard 
that we can actually have access to that.
    In North Carolina, Dr. Hall, we have this issue, for State 
level data, Governor Beverly Purdue in North Carolina, who is a 
governor who has had a variety of issues, but in this 
circumstance she released the State unemployment data in a 
private group. She was speaking to a Rotary Club and released 
this data before her office put it out officially to the wider 
variety. How is that done at the State level? Is there a great 
latitude that governors have on putting out the State level 
data? And what is that relationship?
    Mr. Hall. Sure. BLS works with State partners to collect 
the employment data, and one of the things that happens is, 
because we are working with the State labor agencies and they 
are helping us, they themselves get the data ahead of time, it 
is before BLS has done some things. So they get the data before 
the release. And because they are not Federal employees, we 
can't really control what they do with the data.
    We can ask them, for example, when they write the data up 
and present it, we can ask them to try not to be political. 
Sometimes they are in how they describe the data, something I 
wouldn't be comfortable with. And sometimes, as is in this 
case, it appears like the State office may have shared the data 
with the governor, who then shared it. I happen to think that 
is a little bit of a problem and it is something that is sort 
of falling between the cracks because of this marriage between 
the Federal and the State governments.
    Mr. McHenry. Well, there are penalties. The Confidential 
Information Protection and Statistical Efficiency Act of 2002 
carries a fine of $250,000, up to five years in prison, or 
both, for breaking that. It has been hashed out in the 
newspapers and my understanding is that the governor didn't 
violate that law. Has there been any action in terms of fines 
or penalties for release of this type of data?
    Mr. Hall. Not that I know of, and I am not an expert in the 
law, but that law you mentioned, I believe it governs Federal 
employees.
    Mr. McHenry. Okay.
    Mr. Hall. And the Federal handling of data.
    Mr. McHenry. So that goes to the State latitude.
    Mr. Hall. Yes.
    Mr. McHenry. So to that regard, you served in a previous 
administration, but do you think that this Administration has 
been too lax in its release of the monthly unemployment 
numbers?
    Mr. Hall. No, I don't think there is any issue with 
anything with the release other than the technology has changed 
and it has made it harder to control the security of the 
release.
    Mr. McHenry. Okay. Thank you. Thank you so much.
    With that, Mr. Chairman, I would be happy to yield the 33 
seconds I have.
    Chairman Issa. I thank the gentleman.
    Dr. Hall, you keep talking about the security, the 
security, the security. Ultimately, if no wireless device is 
allowed in the room and if wires do not accidentally or 
inadvertently bypass controls of a switch, and you don't let a 
reporter walk outside to set up his camera, if you don't do 
those things, you still have the same level of security you 
have always had, which are people, 10 times a month or more, 
when convenient to the Bureau of Labor Statistics, when you 
want them there, because otherwise you just release directly, 
but when you want them there, you put them in a room and, in 
fact, you don't give them access to send out information until 
you turn the switch.
    So I understand the technology. I spent a lot of time 
growing up in business in technology, but this doesn't sound 
like technology where it just oozes out. Ultimately, the 
failures that we heard about were mechanical failures, weren't 
they?
    Mr. Hall. Yes, they were. Let me just say that BLS sees 
value in the lockup, because we are not only tasked with 
disseminating the data, but they also want people to get it 
right. They want a chance to explain it so that it is reported 
correctly and then, when it is disseminated, it is disseminated 
correctly, there aren't mistakes made, et cetera. So there is 
real value in the lockup. Our concern is just that it needs to 
be done in a secure environment.
    Now, the taking out of equipment out of the room, I can 
tell you what is really behind that. It is an effort to get 
traders out of the lockup, automatic traders. So there was a 
decision, in my opinion, to get the traders out of there and 
have a lockup without traders in there. That decision is kind 
of a really critical policy level decision for statistical 
agencies.
    I know of two agencies that have traders in the lockup. 
USDA has traders in the lockup, they have commodity trading 
that come out of there. They, for years, have encouraged that. 
They are trying to facilitate traders working out of the 
lockup; it is on purpose. They have much higher levels of 
security and they take care of things better. What this is, 
this is an effort, to some degree, to sort of bail on allowing 
the trading and try to get it----
    Chairman Issa. Thank you. Thank you.
    Mr. Jordan.
    Mr. Jordan. I would be happy to yield time to the Chairman.
    Chairman Issa. Then I will pick up where I left off, which 
works out really well here.
    I started on a line, though, and I want to continue it. It 
is in the Bureau of Labor Statistics' interest to have lockups, 
and that is why they have them.
    Mr. Hall. Absolutely.
    Chairman Issa. When it is not in their interest, they 
simply put the information out.
    Mr. Hall. Yes.
    Chairman Issa. Okay. When I watch CNBC, Bloomberg, and 
other services, all the various--I came out of business, so I 
used to have multiple TVs in my office that distracted me from 
everything. But, in fact, when I would watch those, I would 
hear people trying to analyze your very statistics after the 
lockup had ended, after the numbers were out, and they were 
arguing, often, Quintanilla and others, they were arguing back 
and forth about whether it really meant something, how it dealt 
with the previous revision, since you are somewhat famous for 
having a set of statistics and a revised set and a revised, 
revised set. And all of that takes analysis that is far beyond 
the number, doesn't it?
    Mr. Hall. Yes, it does.
    Chairman Issa. And whether, as Ms. Speier mentioned, there 
is a financial interest by people watching it or simply a 
businessman trying to figure out whether my forecast for future 
products is going to go a different way and I may want to 
reconsider how much I stock up on inventory for Christmas, 
whatever the reason is, your facts, your statistics in a vacuum 
are dangerously useless if you don't have people who can make 
secondary evaluations and turn them into meaningful information 
with comment, dialogue, and perspective.
    Mr. Hall. Absolutely. It is a very important part of BLS. 
It is also one of the reasons why BLS is tremendously available 
directly from the public. You can call us, et cetera. This is 
why I thought it was really important that nobody stands 
between BLS and the public in not only disseminating the data, 
but being able to describe it and help people understand it.
    Chairman Issa. Well, I am going to close with just one 
question for Mr. Moss and Mr. Doherty. If this rule, as it was 
originally requested, were to take effect, in which your people 
are put into a room with only essentially a typewriter of 
modern making, a PC with Word on it, and no reference data, no 
ability to bring in anything more than they happen to have in 
their head, wouldn't the quality of your reporting from your 
two major news services go down, and wouldn't the 
differentiation of your services be narrowed, meaning wouldn't 
you tend to look more alike if all you had was your source 
material and a half hour to scratch up what you could on a 
typewriter?
    Mr. Moss. Mr. Chairman, that would be very detrimental to 
the quality, accuracy, and context of what is now published at 
8:30. For one reason, we would not be able to bring our 
software, which helps us with historical context, it helps us 
formulate tables, reams of data on everything from 
participation rate to gender to industries.
    Chairman Issa. Mr. Doherty?
    Mr. Doherty. I would just add not just that, but the 
quantity of information we are able to put out at 8:30 would 
drop dramatically because we would be doing a lot more by hand, 
as opposed to things that are done by the software automation.
    Chairman Issa. Thank you.
    In closing, I know there has been a lot of controversy here 
on how we count and what we count as green jobs, and we will 
have more of that on the second panel, but I would like to 
thank the representatives of the press, both broadly and 
specifically. It is unusual to have the press before this 
Committee. It is not a standard for us to be asking you 
questions. And we really appreciate being able to get the 
answers.
    But it is so important that what you do and the fact that, 
as a businessman, I never subscribed to your services. I wasn't 
looking at it in that detail. I wasn't worried about making a 
trade immediately. But the things I read in the Journal, in 
paper, and so on, in the days and weeks afterwards I knew were 
affected by the quality of your initial reporting; not by the 
source data itself, but by the analysis of the source data. So 
on a personal basis I want to thank you for pushing back to 
make sure that people in all aspects of life have the 
opportunity to have a free and differentiated press coming out 
of those lockups.
    With that, I thank you. We are going to stand in recess for 
about five minutes while they reset for the second panel.
    [Recess.]
    Chairman Issa. We now recognize our second panel. Mr. Carl 
Fillichio is the Senior Advisor for Communications and Public 
Affairs at the United States Department of Labor. Mr. Fillichio 
has not been through the Senate confirmation hearing, despite 
the fact that he is responsible for conducting his duties, he 
is responsible for those conducted during the Bush 
Administration by a Senate-confirmed Assistant Secretary of 
Public Affairs.
    Mr. John Galvin is the Acting Commissioner of the Bureau of 
Labor Statistics; and the Honorable Jane Oates is the Secretary 
of Employment and Training Administration at the United States 
Department of Labor.
    Again, pursuant to the rules of the Committee, would you 
please rise to take the oath? Raise your right hands.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    [Witnesses respond in the affirmative.]
    Chairman Issa. Thank you.
    Let the record reflect that all witnesses answered in the 
affirmative.
    You are much more skilled, perhaps, than the members of the 
press, so I know that you will understand that your full 
statements are being placed in the record, and summarize when 
the light begins to go yellow and finish when the light turns 
red, if you possibly could.
    Mr. Fillichio.

                  STATEMENT OF CARL FILLICHIO

    Mr. Fillichio. Mr. Chairman, Ranking Member Cummings, and 
members of the Committee, thank you very much for the 
opportunity to share with you the efforts we are taking 
regarding the release of important national economic data.
    At the Department of Labor, we take our security 
responsibility seriously and we value the critical role the 
press plays in disseminating this information. The Office of 
Management and Budget's Statistical Directive No. 3 permits, 
but does not require or recommend, prerelease access to the 
news media of principal Federal economic indicators. Should an 
agency elect to prerelease, OMB requires it to establish the 
security necessary to ensure that there is no premature 
dissemination of the data prior to the designated release time.
    We provide what is called press lockups solely for the 
purpose of serving the public. Reporters are sequestered and 
given the data on an embargo basis at 8:00 a.m., and have 30 
minutes to examine the data and prepare their stories for 8:30 
a.m. release. We believe that the lockups facilitate good 
journalism and a more enlightened public debate. Through press 
lockups, we release all principal Federal economic indicators 
produced by the Bureau of Labor Statistics, as well as an 
unemployment insurance weekly claims report produced by the 
Employment and Training Administration.
    Our lockups have evolved since the mid-1980s, when 
reporters would congregate behind a closed door in a DOL office 
and were provided with paper copies of the report. Since then, 
obviously, technology used by the news media to transmit 
economic data has evolved rapidly.
    In 2001, the Department took steps towards implementing 
additional data security controls in response to speculation 
that movement in the markets prior to 8:30 a.m. was the result 
of premature leaks. Not long after, automation in trading 
became prevalent and we began to hear directly from traders 
eager to know which news organization had prerelease access to 
the numbers.
    Over the years there have been different types of 
violations of security protocols, technological and otherwise, 
and the Department addressed them accordingly, but in 2011 more 
than a decade had passed since we undertook a thorough review 
of our policies, our procedures, and protocols regarding the 
lockup.
    We understand that there is an intense competition to 
provide information first to investors and to the general 
public. We also know that the competition now extends to making 
the raw data available to subscribers trading on it through 
algorithms, which is not the purpose of the lockup. But we very 
much believe that it is possible to balance our commitment to 
contribute to an informed public debate with an equally strong 
commitment to prevent the premature release of economic data. 
So we recently announced new security protocols that will give 
participating news organizations the continued opportunity to 
write their stories in a secure lockup environment, while 
taking additional precautions to prevent early release.
    Last year we entered into a Memorandum of Understanding 
with Sandia National Laboratories to identify potential 
vulnerabilities in our lockup and provide mitigation options 
for vulnerabilities identified. Sandia is a government-owned 
entity, recognized as a leader in preventing technological 
surprise, anticipating threats, and providing science-based 
system engineering solutions.
    Sandia began its work in July and provided the report to us 
in August of last year. The report included recommendations 
that we: one, replace the variety of privately owned equipment 
with standardized equipment that will significantly reduce the 
possibility of data leaks; two, secure standardized phone data 
lines that are physically off limits to news media 
organizations; and, three, require that reporters' electronic 
devices and personal effects be stored outside of the lockup 
room.
    In addition, we announced new credentialing processes 
ensuring that reporters in our lockup represent primarily 
journalistic enterprises and produce time-sensitive summaries 
and analysis of department data to a broad audience. The 
decision on credentials were handled by a committee of career 
employees, and neither editorial nor political viewpoints were 
considered in the process. Concurrently, I instituted internal 
rules regarding DOL personnel who staff the lockups, including 
prohibiting noncareer employees in the lockup facilities.
    Some media organizations have expressed concern that our 
plan would not permit the use of their private, individual 
high-speed data lines, their customized publishing software, 
and their personal computers and other hardware. We met with 
the news organizations on May 15th and then brought them and 
our technical experts together for discussions on May 23rd, May 
30th, and June 1st.
    These meetings have been productive and I am encouraged by 
the progress that we have made towards a solution that 
addresses our security mandates, as well as the media's 
business and journalism goals. We are also working with the 
news organizations on a code of conduct for reporters who 
participate in our lockup, and we are on track to institute new 
and additional safeguards based on Sandia's recommendations, in 
consultation with representatives from the Associated Press, 
Bloomberg News, Dow Jones News Wire, and Thompson Reuters.
    Technology is going to continue to change at a rapid pace 
and adjustments to protect the integrity of our data must be 
made on a continuing basis. I believe that we have laid a great 
foundation to move forward.
    Mr. Chairman, thank you again for the opportunity to 
testify, and I am pleased to answer your questions.
    [Prepared statement of Mr. Fillichio follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Issa. Thank you.
    Mr. Galvin.

                  STATEMENT OF JOHN M. GALVIN

    Mr. Galvin. Good morning, Chairman Issa, Ranking Member 
Cummings, and distinguished members of the Committee. I 
appreciate the opportunity to appear today to discuss the 
methods used by the Bureau of Labor Statistics to protect 
economic statistics prior to their official release to the 
public.
    Immediately upon the official release date and time of BLS 
statistical products, the BLS widely disseminates these 
products to the public through the BLS website and an email 
subscription service. Prior to that official release the BLS 
spares no effort in securing the confidential information from 
unauthorized disclosure or use.
    The BLS is responsible for protecting two types of 
confidential information: respond and identifiable information, 
and prerelease information. Respond and identifiable 
information is collected from businesses and households under a 
pledge of confidentiality and is protected from unauthorized 
disclosure and use by the Confidential Information Protection 
and Statistical Efficiency Act of 2002. After that collection, 
the information is aggregated in a manner which allows its 
release to the public through a statistical report, while 
ensuring respondent identities are not disclosed.
    Prior to its release to the public, the aggregated 
statistical report is considered prerelease information. The 
Office of Management and Budget exercises authority for 
coordination of the Federal statistical system and 
dissemination of its outputs. Consequently, the handling of 
prerelease information is governed by OMB statistical policy 
directives.
    Specifically, OMB Policy Directives 3 and 4 govern all BLS 
prerelease information. Directive 3 applies to our handling of 
principal Federal economic indicators, or PFEIs. The Bureau 
produces seven of these PFEIs. All our other data are governed 
by OMB Policy Directive No. 4.
    The BLS has strong internal policies and procedures in 
place to ensure the integrity and confidentiality of the data 
we compile, store, analyze, and provide to the public. BLS 
employees and contractors are informed of these policies and 
procedures in annual training. Furthermore, the BLS restricts 
access to confidential information to only those individuals 
who need the information to carry out program missions. BLS 
policy explicitly prohibits employees from using their access 
to these data for personal financial gain. The BLS information 
systems that store and process confidential information have 
implemented security controls to meet or exceed those required 
for moderate systems by the Federal Information Security 
Management Act. Personal identification cards are used for all 
physical access to the BLS building and to specific locations, 
housing, critical telecommunications equipment, and IT 
equipment.
    OMB Statistical Policy Directive 3 allows for sharing of 
prerelease PFEI information in a lockup arrangement. In such an 
arrangement, prerelease access is provided within the confines 
of a secure physical facility 30 minutes prior to the publicly 
announced release time. Participants are not permitted to leave 
the lockup room until the information has been released to the 
public. No external communication is allowed during the lockup. 
BLS has used a secure prerelease arrangement to provide 
prerelease data access to the Office of the Secretary of Labor 
and to the Joint Economic Committee of Congress. BLS uses the 
Department of Labor lockup facility to provide secure 
prerelease data access to credentialed members of the media.
    In 2011, DOL, with the full support of BLS, entered into an 
MOU with Sandia National Laboratories for a vulnerability 
assessment of the DOL lockup facility. That assessment 
identified vulnerabilities that the BLS and the Department of 
Labor plan to eliminate with the changes to the lockup facility 
scheduled to go into effect on July 6th, 2012. BLS and the 
Department of Labor are working with participating news 
organizations to finalize solutions based on the Sandia report 
recommendations that satisfy the government's need to protect 
the prerelease data from unauthorized dissemination and use, 
but also facilitate timely and informative analysis of the data 
by the media.
    In summary, the reputation and credibility of the BLS 
depends on our ability to release economic data to the public 
in a fair and orderly manner. The BLS has strong internal 
policies and procedures to ensure the security of our sensitive 
prerelease information. The BLS agrees with the Sandia report 
recommendations and fully supports the Department of Labor's 
implementation of these recommendations.
    Thank you again, and I would be pleased to answer any 
questions you may have.
    [Prepared statement of Mr. Galvin follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Issa. Thank you.
    Ms. Oates.

             STATEMENT OF THE HONORABLE JANE OATES

    Ms. Oates. Thank you. I appreciate the opportunity to come 
and talk with you and update you on the progress of your 
investigation----
    Chairman Issa. We still are really not able to hear you. 
Could you pull the mic to where it is sort of in front of you? 
Thank you.
    Ms. Oates. I am so sorry. It is the first time in my life I 
have been told to speak up.
    Chairman Issa. And one of the amazing things is you project 
perfectly to the dais, but this wonderful woman over here, who 
is off to your side, is the only person that makes your 
presence permanent.
    Ms. Oates. I will be much more attentive to you, madam.
    Chairman Issa. Thank you.
    Ms. Oates. So good morning again, and thanks for the 
opportunity to update you on our progress on your investments 
and the ability to train workers for good jobs in green 
industries and other industries.
    The Department plays a critical role in ensuring that we 
have a prepared workforce for the economy of today and 
tomorrow, an economy that deals with all sectors, including 
green. Over the last few years, we have made a number of 
strategic investments to ensure that, as the green sector 
grows, businesses will have the talent they need to prosper.
    Strong partnerships with employers have been critical to 
these investments from the very beginning. That is why the 
Department required that grantees work closely with employers 
to assess the real employment needs of their local areas, and 
we encourage grantees to be flexible throughout the full life 
cycle of the grant.
    In some communities employer needs have changed since the 
grants started, and grantees have made adjustments to continue 
to ensure that their projects are aligned with employer needs, 
such as providing training for additional occupations that 
require the same skill sets, but were with different employers 
than they had originally anticipated.
    The Department is also committed to making sure these 
investments work. We have implemented a number of new processes 
to monitor progress and intervene as necessary to improve grant 
outcomes and hold grantees accountable, including a 
performance-based process for identifying and prioritizing 
grantees with high technical assistance needs.
    We provide technical assistance through several mechanisms, 
including in-person meetings and workshops, facilitated peer 
learning conference calls, webinars, and case studies examining 
promising practices implemented by our highest performing 
grantees. Technical assistance covers many topics, including 
the basics of proper reporting and accounting procedures, but 
also focusing heavily on job placement and employer engagement 
strategies.
    Some of the grants to train workers in green industries did 
take longer to get off the ground than the grantees planned, 
but through the strong partnerships with businesses, increased 
flexibility to meet those local needs, the targeted technical 
assistance that I have outlined, and our comprehensive 
communications with grantees, the investments are now paying 
off.
    Through the Recovery Act, the Department invested nearly 
$500 million, directed by Congress, in 189 green job training 
and related programs to help train workers for careers in 
sustainable manufacturing, energy efficient construction, 
biofuels, and other renewable energy sources. These grants have 
served, and are still serving today, more than 99,000 workers. 
To date, more than 65,200 have completed training, and of those 
88 percent have received an employer or industry recognized 
credential such as a certificate or degree.
    Despite tough economic times, after completing their 
training, more than 25,200 workers have already found new jobs, 
with 81 percent of them in green training related jobs. It is 
important to note that of the over 99,000 workers who have 
received services, almost 49,000 were incumbent workers and 
were not necessarily seeking new positions, but looking to 
attain credentials that would help them improve the 
productivity of their employer and basically help them keep 
their job.
    To date, 29,899 incumbent workers that have completed 
training have received a credential. While some incumbent 
workers who received green job training did find new positions, 
for incumbent workers that did not find new jobs, we estimate 
through the data we collect that at least 90 percent of those 
workers retained their current job, which may have included 
advancement potential.
    Similar to the upward trends in performance, the current 
expenditures reflect increased grant activity. As of the 
quarter ending March 31st, 2012, 62 percent of these grant 
programs have ended and been closed out, and 68 percent of the 
total funds for all grantees have been expended. This 
represents more than a twofold increase, compared to the 29 
percent expenditure rate cited by the OIG in the September 2011 
report. In the coming months we expect the positive trend to 
continue.
    To ensure we learn as much as possible from these 
investments, the Department is conducting formal evaluations of 
the green training grants. The interim report for the 
qualitative evaluation of the training focus grants was 
recently published and included a descriptive analysis of eight 
grantee projects. In the essence of time, we will keep you up 
to date on those through your Committee staff.
    Thanks again for inviting me and I look forward to 
answering any questions.
    [Prepared statement of Ms. Oates follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Issa. Thank you.
    We now recognize the gentleman from Oklahoma, Mr. Lankford.
    Mr. Lankford. Thank you, Mr. Chairman.
    Good morning, all of you. Actually, it is good afternoon, 
approaching quickly on it. Let me try to run through a few 
things.
    Ms. Oates, you got a chance to chat a little bit about the 
definition. That was initially the first hurdle for what is a 
green job, in forming a definition. Did you feel like that is 
solidified at this point, that we have a definite definition of 
what a green job is now?
    Ms. Oates. To be honest with you, we take whatever 
definition is given to us and get that information out, but our 
focus is really on relying on States and local areas to tell us 
where the employers have needs, filling that skills gap that we 
hear, and having our grantees respond to that.
    Mr. Lankford. So let me just run a couple things.
    Ms. Oates. Sure.
    Mr. Lankford. If they work at a solar manufacturing plant, 
green job; wind manufacturing plant, green job; the energy, the 
actual production of those, electricity, hydroelectric dam, I 
assume that is a green job. What about a custodian that puts in 
fluorescent light bulbs? They used to put in incandescent, now 
they put in fluorescent?
    Ms. Oates. Again, sir, that is not my job. My job in 
Employment and Training is to make sure that if a local area 
needs somebody who can work with natural gas or put in a 
fluorescent light bulb----
    Mr. Lankford. But you understand where I am on this? The 
difficulty of trying to find out, getting them ready for a 
green job.
    And let me tell you the perspective for me, because I 
visited one of the programs, got a chance to walk through, see 
the training, met some great folks that are very dedicated to 
training people that are unemployed to get employed. In my 
conversation with them, they had just finished up, they just 
graduated a group out, so we were able to talk about how many 
people got placed. My conversation with them was how many of 
the individuals in this program were placed in a green job.
    They hesitated and responded back to me all the skills are 
transferrable, which, great. They ended up in a job, but they 
couldn't name a single person that ended up in a green job, or, 
if they worked the numbers right, for instance, if they ended 
up in home repair, they said, well, they will replace windows, 
so that is a green job; or they will end up in waste 
collection, so that is a green job; or this individual now 
works at a used book store and that is a green job because it 
is recycled materials.
    The challenge is not employment, the challenge is the 
number of what is a green job and what is not, and that seems 
to be a very fluid number in this process. Based on the 
definition, almost anything could be considered a green job at 
this point, if you had some connection to it at some point.
    Ms. Oates. Again, Congressman, maybe it could be better 
directed to someone else, this question. My concern, my charge 
when I took this job was to make sure that job training was 
aligned to the needs of employers. And if that guy wants to 
hire somebody for $10 an hour to replace fluorescent bulbs, 
that is what my training providing should do. As you know, we 
had the chance to talk a little bit in your district and I was 
amazed that what was happening with natural gas and what was 
happening with some of the things like that, and I was thrilled 
that our training programs were working on that. But I was 
equally thrilled when I visited Sonic, that we were also 
getting people that they needed in their back room functions at 
the Sonic headquarters there in Oklahoma.
    So, again, I understand this is a political debate. I hope 
you would agree my job is to make sure my training programs are 
meeting the needs of local employers.
    Mr. Lankford. I absolutely agree. It is only a political 
debate because it is designated for just green jobs, and that 
is the challenge of it, to try to determine are we doing job 
training, are we trying to focus in on a specific sector. And 
even when we had the chance to chat at the career tech, it was 
this ongoing challenge, even when I visited with some of the 
leaders there, to say they have programs that are focused on 
that, but they also have challenges based on, when people 
graduate, trying to place them in a green job, and it is trying 
to redefine what is that definition and how does that really 
get accomplished and how do they track those numbers back.
    I was at a wind farm a few weeks ago, and when I was out 
there I asked how many people do you employ total. It is a huge 
wind farm. It was 12. So when we train people in trying to do 
repair on a wind farm, there is not a large population of 
people that are needed on that, and all of them formerly had 
done something else and been trained onsite to do that job. So 
that is the push and the pull on that, is how do we get around 
the training-related employment type figure of it.
    Now, there is a difference between trying to just employ 
people and trying to target for an industry that may or may not 
be there actually for employment, and that is the challenge of 
it. So that is not the push and pull. I want it to be a growing 
sector.
    Your comment also about incumbent workforce is a great 
comment about half the people that are in the program were 
already trained, they are just getting retrained for something 
else within the same company on that. That helps them be able 
to keep a job, but it is a challenge for people, when we have 
such massive unemployment, to focus in on why don't we train 
people that are unemployed on that one. How did that work out 
for you as far as retraining and training? How did you all make 
the decisions on that?
    Ms. Oates. So I don't know how familiar you are with how we 
award grant money. First of all, usually you are pretty 
prescriptive, as this was. I didn't make the decision how to 
spend this money; I tried to enact what Congress told me to do. 
And then we change the way we panel. Previously, our paneling 
had been three Federal workers, mostly retirees. I really felt 
that in this changing economy we needed to shift that and have 
two outside experts on every panel that we open to the general 
public and one Federal worker. So I don't even see the grants 
until they are awarded. So part of that is that we are really 
looking at the strength of the applicant, the local training 
provider, the local government, the State government to really 
make a case for what the need is.
    Now, we know that oftentimes six months or a year could 
elapse between when you really started writing that grant and 
when the money is awarded. That is why this flexibility. So we 
said to people, when they were writing these grants, in the 
instruction, in the request for applications, that you need to 
look at what the greatest need is. Quite frankly, in some 
States it was definitely getting unemployed people trained 
because there were job vacancies. In other States there weren't 
job vacancies, but there were threats that employers were going 
to leave the State or that companies were changing the way they 
did business. So they made a strong enough case that that panel 
said incumbent worker training, making sure we are doing layoff 
aversion is the most important thing in that local area, and 
they made that case strongly enough that they were awarded.
    And as we see, some of them really hit the nail on the head 
and some of them we have had to be really spending much more 
time with in technical assistance. The wind farm example is a 
great one. Some people who had no--not in Oklahoma, but in 
other neighboring States who had no experience with wind farms 
before thought they were going to have thousands, hundreds of 
jobs, and when they found out there were three technicians per 
shift and that is all they were going to need to service these, 
they were shocked.
    So we then went in to real overdrive to connect them with 
the local utility companies who were looking to green up, and 
they actually have been able to hire new people. It is a very 
graying industry and it is an industry that is everywhere. So 
we have been able to work with CEWD to redirect some of those 
workers because the training was the same that they would get 
if they were doing wind power technician stuff, but the jobs 
weren't there.
    Mr. Lankford. I yield back.
    Ms. Oates. Thank you.
    Chairman Issa. Thank you. I guess that means that they 
didn't get real green jobs by the definition of the public, but 
they did get jobs that they got trained for. So the good news 
is your training worked; the bad news is the scoring of 3.1 
million green jobs had to include all kinds of things that 
people didn't think were green in order to hit some 
hypothetical political number, which I think is what you were 
talking about when you said this is a political discussion.
    Ms. Oates. Mr. Chairman, at least we got the chance to talk 
a little bit. We don't know each other at all, so please take 
this with the great respect that it is given. My job is to make 
sure the training matches the job vacancy needs, and whether 
they are green or white collar or blue collar jobs, that is for 
the local areas to decide and for the statisticians and the 
researchers to say which was what. My job, and I think you 
would, I hope, agree with me, is to make sure that we are not 
wasting taxpayers' money training people for jobs that don't 
exist.
    Chairman Issa. We couldn't agree with you more.
    With that, which one of you, I believe Mr. Lacey is next 
for five minutes.
    Mr. Clay. Thank you, Mr. Chairman.
    Look, I hope we can agree that green jobs are a new 
emerging economy. If we can grow jobs in this sector, this can, 
more than likely, help our economy in job creation. I would 
just hope we on this Committee and in this room can agree on 
that simple aspect.
    Chairman Issa. Would the gentleman yield?
    Mr. Clay. Sure.
    Chairman Issa. I think in my wholeheartedly agreeing with 
Ms. Oates, what I was really saying is out of 120 million 
workers, 12 million of whom don't have jobs, there is nothing 
we could think of as more acceptable in Federal dollars than 
finding people who either don't have a job or would lose a job 
without training and get them trained. I think in our 
discussion of the green versus the green in one's pocket, we 
are all for keeping green in one's pocket by making sure they 
have the skills in order to do the jobs that are available. 
That is where you and I agree more than you will ever admit.
    Mr. Clay. So you do agree that this is an important sector 
of the economy that has the potential for growth.
    Chairman Issa. No, actually, the gentlelady had, if the 
gentleman would continue yielding, she actually said that she 
found often that the windmills didn't create very many jobs, 
but the public utility had some very good jobs and they were 
able to get it. So I think where we are agreeing is that you 
should fit people into jobs that exist, or are likely to exist, 
and that is what these training programs are for. And I think 
that is where we can all applaud the work that she is trying to 
do to use local boards to make sure that this money ends up 
training people for jobs that exist.
    Mr. Clay. So, Mr. Chairman, no matter where the jobs are 
created in the green economy, then that has to be a positive 
impact for job growth. Thank you.
    Chairman Issa. That is all your time.
    Mr. Clay. Assistant Secretary Oates, on March 13th of this 
year, Secretary Solis sent a letter to the Chairman of this 
Committee, and I am assuming you are familiar with that letter.
    Ms. Oates. I will get familiar, sir.
    Mr. Clay. On page 8 of this letter, in response to the 
question of how many jobs had been created with Recovery Act 
money, Secretary Solis writes this: ``In your letter, you 
further claim that the Recovery Act green jobs program cost 
$121,856 per trainee retaining a job. That calculation, which 
appears to be based on a preliminary and incomplete retention 
data cited by the OIG in its reporting, does not accurately 
portray the per trainee costs. The Department believes that the 
most accurate method for calculating the actual cost per a 
participant is to divide the total number of funds expended by 
these grants by the total number of participants who receive 
education training through the grants once the grants are over. 
Assuming that the targets for the numbers of participants who 
receive education training under these grants are met, this 
results in an approximate green jobs training cost per 
participant of $3,777.''
    Assistant Secretary, if I am reading the Secretary's 
response to the Chairman correctly, DOL never spent anywhere 
near $120,000 per job, but actually spent considerably less, 
about $4,000 per trainee, is that correct?
    Ms. Oates. That is correct, Congressman.
    Mr. Clay. Okay. Can you detail for this Committee the types 
of skills provided in these training programs and how you 
believe they will assist trainees to keep a job or get a job if 
they do not have one?
    Ms. Oates. Absolutely. I mean, we take applicants from 
where their clients are and where they want them to be, so for 
some of our programs there is some basic IT or basic adult 
literacy. But for most of them, because we have put a targeted 
concentration on industry recognized credentials, they are 
getting credentials that industry is saying they need. That is 
why they are staying longer in training and that is why it is 
costing us a little more. For many of our participants, that 
means things like getting the entry level credential they need 
and getting a higher level credential as well.
    Mr. Clay. And how does the roughly $4,000 that DOL is 
spending to train workers to keep jobs or get jobs compare with 
the cost associated with being unemployed?
    Ms. Oates. Well, I mean, it is definitely a savings on so 
many ways. They are not on unemployment, they are not on any 
other government subsidies; but they are also productive 
members of their communities. So our whole vision is on 
reemployment, getting people back to work as quickly as 
possible, and some of the strategies that we have used, like 
on-the-job training or our registered apprenticeship programs, 
put them to work while they are being trained.
    Mr. Clay. Thank you so much for your response.
    Mr. Chairman, it seems to me that the cost of training 
employees so they can retain or find employment is clearly a 
wise and cost-effective investment, and I applaud DOL's effort 
for making this modest investment.
    Chairman Issa. Would the gentleman yield for a question?
    Mr. Clay. Sure.
    Chairman Issa. The debate that you brought up in the 
question that we sent to the Department of Labor versus the 
answer, between over $100,000 per job actually created, in 
other words, someone who got a job, and the $3,000 estimated to 
be how much will be applied per trainee, which is important, 
the $3,000 of training or the $100,000 for each job that 
actually occurs?
    Mr. Clay. I actually think that that data is rather 
inaccurate and incomplete. I mean, if you look at the actual 
costs of training these applicants, it is far less than 
$120,000. And as the Secretary testified, it is more cost-
effective, instead of these people having to draw unemployment.
    Chairman Issa. Well, I guess I would ask the same question, 
though. If training costs $3,000 per person, but you look at 
the amount of people who get jobs, it is $100,000 per jobs.
    Mr. Clay. But you are lumping in all kinds of other costs 
here that are not associated with the training or retraining of 
workers. A laid off worker with typical skills, $3,777.
    Chairman Issa. Well, we are looking at how much was 
expended per trainee. But $100,000 per permanent job created.
    Mr. Clay. You are counting the grants. The grants to 
individual companies. That is what is going on here. That is 
how--that is your calculation of it. I don't agree with it.
    Chairman Issa. Well, I assume we will agree to disagree.
    Mr. Ranking Member, would you like to go next? Mr. Tierney 
is recognized for five minutes.
    Mr. Tierney. Thank you, Mr. Chairman.
    Ms. Oates, I am looking at some of the data around this and 
some of the information. First of all, would it sound 
reasonable to you, our statistic here, that about 100 new 
United States renewable energy and energy efficiency 
manufacturing plants have opened up in the United States since 
2009?
    Ms. Oates. That is the data that we have seen as well, sir.
    Mr. Tierney. And that is just one broad study. There are 
others as well, if I am not mistaken, correct?
    Ms. Oates. Yes.
    Mr. Tierney. Because I know in our State in particular we 
have done that. Are you also showing that States that have made 
their own investment, sort of leveraged Federal investments in 
this area have had a particular boon in the clean energy 
manufacturing and efficiency areas?
    Ms. Oates. Without a doubt, some States have really pushed 
to get businesses to grow there. I think Massachusetts is an 
example. But I also think North Carolina has pushed to get the 
lithium battery business there is well documented, as well as 
their push to get Siemens. So I definitely think States have 
been aggressively looking at how to attract foreign investment 
and how to incubate and grow American business as well.
    Mr. Tierney. And one of the grants--you give energy 
training partnership grants, I notice on that, so a range of 
whole careers on that. One is the hybrid electric auto 
technician career.
    Ms. Oates. That is right.
    Mr. Tierney. Are there particular skills and education 
people have to have to be employed in the hybrid electric auto 
technician area?
    Ms. Oates. In the plants that I visited, they have been 
totally reformatted. They use different equipment. The body 
stays the same, but the engine and mechanism is totally 
different. So there has been a real need to upgrade the skills 
of both incumbent workers and recruit new workers with 
different skills that fit the needs of that industry now.
    Mr. Tierney. I know in my district alone, but in the 
Commonwealth of Massachusetts as well, we put a tremendous 
number of people together on weatherization projects on that 
and that they did need particular training for that. A number 
of the companies, as well as some of the communities that were 
involved in that, made comment to that and asked for these 
resources. Are you finding that to be generally true throughout 
the Country in weatherization projects, that it requires a 
particular set of skills and education to be able to perform 
those tasks?
    Ms. Oates. Absolutely. And while some of those skills, like 
using a blow door and doing insulation would be seen as entry 
level skills, we have seen a trend now through our work with 
CEWD that the folks that enter that career path went on to go 
to some of their Centers for Excellence, which we don't fund, 
and went on to work and get permanent good jobs in utility 
industries.
    Mr. Tierney. We have a lot of people in our State doing 
wind and energy auditing, which has become a very active field 
on that.
    Ms. Oates. Especially at the Cape.
    Mr. Tierney. Especially at the Cape, exactly right. That 
takes a particular skill set and education as well, does it 
not?
    Ms. Oates. Absolutely. And a higher academic skill set than 
many of the other jobs that would have been seen in these 
sectors in the past. People have to know how to use handheld IT 
devices.
    Mr. Tierney. And solar panel installers. We have some up in 
the old Lucent plant I think you are familiar with up in the 
Andover area, where those companies are doing very, very----
    Ms. Oates. That is right. Four layoffs ago, right.
    Mr. Tierney. Four layoffs ago. But those companies which 
fill a lot of that building now, some of them are installing 
panels. They do everything from the panel installation to 
actually the claws that connect the panels to the rooftops on 
that. They are all asked to help with training their employees 
because it was a special skill set and education level, is that 
correct?
    Ms. Oates. That is correct. And you know the problem when 
you bring up Lucent, Congressman, that is exactly the trend we 
are seeing around the Country. Places that used to employ 6,000 
people are now starting to incubate smaller businesses that 
hire a fraction of those people, and getting their needs, 
filling their skills gaps is much more difficult than it was 
talking to the HR director at Lucent 15 years ago.
    So it has really become much more complicated for all boots 
on the ground, the people that we pay through the money that 
you give us, through State and local areas, the WIBs and the 
one-stops, it has become much more laborious for them to go to 
employers that employ 50 people and really understand what they 
need. That is why we are pushing industry-recognized 
credentials.
    Mr. Tierney. And part of what you do is allow job seekers 
to really connect with the jobs that are out there, that is 
part of the Workforce Investment Board responsibility.
    Ms. Oates. That is correct.
    Mr. Tierney. And I have watched that happen. One thing is 
the training; the other is, in a tough economy, trying to 
connect people with the jobs that exist.
    But in our district, and you can correct me if I am wrong 
because I know you have been up there, we have found a 
significant number of new jobs in the energy efficiency area 
and the energy manufacturing area, so our Workforce Investment 
Boards have actually been connecting people and trying to do 
more training that allows for internships and apprenticeships 
that give them some income while they are getting the skills 
and education, and then a transition because the employer now 
is familiar with the perspective employee and can bring them 
on. Is that something you have noticed as well?
    Ms. Oates. That is absolutely right. And some of the models 
that are in Massachusetts are the same as California, quite 
frankly, and Maryland, that if you want to get a dislocated 
worker immediately to pay attention to upgrading their skills, 
you have a much better opportunity to do that if you put them 
in on-the-job training, because they don't want to sit home, 
they want to get back to work; and they are afraid, in this 
economy, if they sit home too long, there is not going to be a 
job. So they want to get back to work, and those programs in 
all three of your States, quite frankly, have been the most 
productive.
    Mr. Tierney. Thank you.
    Chairman Issa. Thank you.
    The gentleman from Idaho, Mr. Labrador.
    Mr. Labrador. Mr. Chairman, I yield back.
    Chairman Issa. Ms. Oates, the gentleman from Massachusetts 
listed a number of jobs. Weren't most of those jobs jobs that 
in fact rely on subsidies? In other words, the boom in the 
industry of insulating new windows, that was a stimulus 
program, so you were creating job training for jobs that were 
created under the Stimulus Act in that case. That is where the 
boom in that industry has been.
    Now, don't get me wrong, it is an energy savings, I am all 
for it, but the fact is some of the jobs that you are job 
training, the green jobs, were linked hand-in-hand with 
stimulus. To the extent they were windmills, they were mandated 
by State law to get a certain renewable, they were funded, they 
were given subsidies, and then you were producing training. So 
you were, in a sense, directly an arm of providing green jobs 
for green stimulus money that had created green opportunities 
for business. Solyndra and all the others, in one way or the 
other, benefited from either mandates to do or stimulus money 
or grants, correct?
    Ms. Oates. I hesitate to say correct, sir. Again, with all 
due respect, I was educated in Massachusetts, I went to Boston 
College, and Massachusetts has been at the forefront of looking 
at how to do energy conservation----
    Chairman Issa. Right. But we are having a discussion about 
3.1 million jobs that are constantly being touted by this 
Administration. Those jobs in fact include people who empty 
porta-potties, they include who print on a cup that says power 
savings. So not only do we have the misleading figures because 
we are counting jobs that have been around for generations. You 
testified here today that your green jobs, you went to find 
where there was a job opening, not necessarily where there 
could be.
    What we are trying to understand is how significant is it 
when they claim 3.1 million jobs, and it appears as though it 
is not significant at all; that these are, to a great extent, 
$100,000 to create per job that is ``lasting a year'' and, at 
the end of the day, you simply took the money and did a jobs 
training program as the jobs existed. You weren't ``training'' 
for some magical new jobs; you were training for jobs that 
happened to exist, and if it was somebody operating a piece of 
software while working for a power company out on the power 
lines, you did it.
    So I am all for what you are doing. I just want to make 
sure that we define that when the President is constantly 
touting 3 million new jobs, or Secretary Solis is, they are 
touting jobs that, under the definition, I think we would have 
a hard time finding them.
    Let me switch subjects.
    Ms. Oates. Sir, if I may. I can't answer making an if-then 
clause. So I just don't know if the people that we trained in 
Massachusetts with our dollars, and we trained a lot of them, 
were being trained for jobs that existed because of other 
government subsidies. I don't disagree with you, but I think 
you were asking me to say that those jobs were only created 
because of----
    Chairman Issa. Well, some of them were. That is all I was 
asking.
    Ms. Oates. Yes, I don't disagree that there were jobs 
created everywhere. But I hope that we don't train for jobs 
because they get a Federal subsidy. We train for job----
    Chairman Issa. Let me run you through some questions here 
because you are here because we are having a green jobs 
counting discussion. Someone who assembles turbines, is that a 
green job?
    Ms. Oates. Wind turbines?
    Chairman Issa. Yes, wind turbines.
    Ms. Oates. I think we would call any kind of sustainable 
manufacturing fitting the definition----
    Chairman Issa. Does someone who sweeps the floor in a 
facility that makes solar panels, is that a green job?
    Ms. Oates. I will give that to Jack, if you don't mind.
    Chairman Issa. Mr. Galvin?
    Mr. Galvin. We define--we have a two-part definition----
    Chairman Issa. We already had the briefing on that, so just 
answer the question. If you are sweeping the floor in a solar 
panel production facility, is that a green job?
    Mr. Galvin. If you ask me for the number of health care 
jobs in the United States, I will give you the employment from 
the health care industry.
    Chairman Issa. Look, Mr. Galvin, Mr. Galvin, you did not 
want to come here as a witness. You are not a delighted 
witness, so let's go through this. I asked you a question; you 
know the answer. Would you please answer it? If you sweep the 
floor in a solar panel facility, is that a green job?
    Mr. Galvin. Yes.
    Chairman Issa. Thank you. If you drive a hybrid bus, public 
transportation, is that a green job?
    Mr. Galvin. According to our definition, yes.
    Chairman Issa. Thank you. What if you are a college 
professor teaching classes about environmental studies?
    Mr. Galvin. Yes.
    Chairman Issa. What about just any school bus driver?
    Mr. Galvin. Yes.
    Chairman Issa. What about the guy who puts gas in the 
school bus?
    Mr. Galvin. Yes.
    Chairman Issa. How about employees at a bicycle shop?
    Mr. Galvin. I guess I am not sure about that.
    Chairman Issa. The answer is yes, according to your 
definition. And you have a lot of them.
    What about a clerk at the bicycle repair shop?
    Mr. Galvin. Yes.
    Chairman Issa. What about someone who works at an antique 
dealer?
    Mr. Galvin. I am not sure about that either.
    Chairman Issa. The answer is yes. Those are recycled goods; 
they are antiques, they are used.
    What about someone who works at the Salvation Army in their 
clothing recycling and furniture?
    Mr. Galvin. Right, because they are selling recycled goods.
    Chairman Issa. Okay. What about somebody who opened a store 
to sell rare manuscripts?
    Mr. Galvin. What industry is that?
    Chairman Issa. People sell rare books and manuscripts, but 
they are rare because they are old, so they are used.
    Mr. Galvin. Okay.
    Chairman Issa. What about workers at a consignment shop?
    Mr. Galvin. That is a green job.
    Chairman Issa. Does the teenage kid who works full-time at 
a used record shop count?
    Mr. Galvin. Yes.
    Chairman Issa. How about someone who manufactures railroad 
rolling stock, basically train cars?
    Mr. Galvin. I don't think we classified the manufacturer of 
railcars----
    Chairman Issa. Forty-eight point 8 percent of jobs in 
manufacturing railcars counted, according to your statistics.
    About half of the jobs that are being used to build trains. 
Okay, how about just one more here. What about people who work 
in a trash disposal yard? Do garbage men have green jobs?
    Mr. Galvin. Yes.
    Chairman Issa. Okay, I apologize. The real last last is how 
about an oil lobbyist. Wouldn't an oil lobbyist count as having 
a green job if they are engaged in advocacy related to 
environmental issues?
    Mr. Galvin. Yes.
    Chairman Issa. Thank you.
    With that, I go to the Ranking Member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. As I sit 
here and I listen to all of this, I live in the inner city of 
Baltimore and I think about, Ms. Oates, all of the young men 
and women who I see every day, I will see them this evening 
when I go home, and all they want is a job. If they get a shot 
at any of the jobs that the Chairman just mentioned, they would 
die for it. They want dignity; they want a job. They want to 
take care of their families; they want a job. They are not 
trying to get to Disney World; they are just trying to get to 
the local park with their family. They are not trying to buy 
$200 tennis shoes; they just want to buy a $10 pair at the 
bargain store. They want a job.
    Job training, I think, is very, very important, and I want 
to applaud you for your efforts because I know of them, and I 
know that you don't just wear green today; you believe in what 
you are doing, and I appreciate it.
    In May, the seasonally adjusted national unemployment rate 
for people whose highest educational qualification is a high 
school diploma was 8.1 percent and the rate for those without a 
high school diploma was 13 percent. The unemployment rate for 
people with a bachelor's degree or higher educational 
qualification was 3.9 percent. Given these numbers, it is 
critical that this Congress do everything in its power to 
create and support sustainable good paying jobs for working and 
middle class Americans.
    William Dudley, the President of the Federal Reserve Bank 
of New York, said at the quarterly regional economic press 
conference one of the problems facing America's middle skilled 
workers is job polarization. He stated this: Over the past 
three decades, job opportunities have become increasingly 
concentrated in high wage, high skill occupations and low wage, 
low skill occupations, while job opportunities or those in the 
middle have been shrinking. At the same time, he says, there 
has been a growing gap in wages between jobs that pay the most 
and those that pay the least. Taken together, this phenomenon 
is often referred to as job polarization.
    According to President Dudley, there are steps we can take 
to address this problem, and he said this: More than ever 
before, jobs are requiring a greater degree of knowledge and 
skills. In order to adapt to these changes, it is increasingly 
important for workers to acquire and upgrade their skills, 
whether through formal education or other forms of training.
    Mr. Fillichio and Assistant Secretary Oates, can you 
describe the programs within DOL and ETA, for example, the 
Workforce Investment Act programs, that have helped employee 
middle skilled workers transition to new careers? Briefly.
    Ms. Oates. Sure. I would be happy to start, Carl, if you 
have something to add.
    ETA is really the part of the Department of Labor that does 
the lion's share of this work, although we do it with our 
friends at Vets and Office of Disabilities and Women's Bureau 
as well, but I think basically, to sum things up, we are really 
focusing on credentials, industry-recognized credentials that 
employers want. We are partnering with our friends both at HHS, 
mainly in Children and Families, the folks that are 
transitioning from TANF and our partners at Education. So, for 
instance, take somebody who has worked for 20 years. They could 
work in a factory and make a good salary, and that factory went 
away. Their high school diploma, if they have one, may not be 
enough to get them a new job in a new sector. But it is 
ridiculous for them to have to go to adult basic education and 
job training separately.
    We have created integrated programs where people can 
upgrade their reading and math skills and their IT skills at 
the same time they are learning the new trade. So the easiest 
example for me to give you is somebody who doesn't read very 
well, but wants to get into health care. They don't need to 
learn to read a menu today; we shouldn't be paying for that. We 
should be teaching them how to read using medical vocabulary. 
And that is what we have done. We have those programs in 
Baltimore City and Baltimore County right now so that a 40-
year-old who is dislocated doesn't have to learn to read before 
they can learn medical vocabulary or billing and coding.
    So those are the kinds of things we have done.
    Mr. Cummings. And that is a very practical thing because 
that is real. I think a lot of folks just think that--I have 
heard all kinds of things like people don't want to work and 
there are people who can easily get jobs if they wanted to. 
There is a lack of jobs, unfortunately.
    When I was listening to what you were saying a little bit 
earlier, I was thinking about the training. Training is very, 
very important and, unfortunately, training dollars have been 
slashed tremendously under Republican budgets, and I am just 
wondering if you are going to get somebody on their feet and 
make sure that they do not become a detriment to society and 
lose their dignity, I think one of the things that we could do, 
and I think this is what Mr. Dudley was saying, is you have to 
give them some kind of training. Some folks think that folks 
can just walk into a job and automatically do a job.
    I think what employers want, we often talk about what 
employers want. I think, and you can correct me if I am wrong, 
I think what employers want is a trained employee. They want 
someone who is going to come to work, going to do the job, 
going to do it well, and if they can have a trained employee 
from the very beginning, I assume that that would save them 
some money, and that is one of the reasons why they want a 
trained employee. Is that right?
    Ms. Oates. Absolutely. It costs employers a fortune when 
somebody leaves after four or five weeks because they weren't 
the right fit for that job.
    Mr. Cummings. The other thing, the flip side of that is 
when they have to train, if they can find programs or whatever 
to train these folks before they get there, then they don't 
have to spend resources training people, is that right?
    Ms. Oates. That is exactly right.
    Mr. Cummings. Another thing that is very interesting is 
that when we look at these folks, the ones that I talk about, 
the ones that I see every day, while they may train in these 
areas, they are given skills that hopefully are transferrable. 
In other words, they may not have a job today, or they may get 
a job and the job may not last but so long, but at the same 
time they get skills and hopefully, as I tell folks all the 
time, sometimes you have to tread water until you can swim. So 
I assume that that is part of your philosophy, too; even if you 
can't get something right away, what you want to try to do is 
make sure that you give them the skills to be able to fend for 
themselves and hopefully get a job.
    Ms. Oates. That is exactly right. And we do it on a core 
competency model so that, for instance, the same basic core 
competencies could be for construction as well as the utility 
areas. And then as people demonstrate through the acquisition, 
passing a test, performance-based test usually, to get an 
industry-recognized credential, that is what makes it really 
transferrable. It is not just that Jack said Jane could do the 
job; Jane has an industry-recognized credential, an assessment 
that she can show a new employer.
    Mr. Cummings. So whether you call it a green job, a blue 
job, or a purple job, the fact is that they get training and 
hopefully they will be able to acquire a job.
    Thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    We now go to the gentleman from Virginia, Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Galvin, you are the Acting Commissioner of the Bureau 
of Labor Statistics.
    Mr. Galvin. Correct.
    Mr. Connolly. The Chairman made note a little while ago 
that our former colleague, now the Secretary of Labor, was 
herself the author of some of the environmental legislation 
that seems to guide the whole issue of classification of green 
jobs. Just to clear that up, has the Secretary herself 
personally intervened to ensure that jobs, green jobs get 
classified or reclassified as such?
    Mr. Galvin. No, she has not. In developing our definition, 
we did a very thorough survey of what other Federal statistical 
agencies around the world had done. We looked at what various 
States had done. We talked to, as Mr. Hall said earlier, 
experts in other Federal cabinet agencies with sort of a green 
portfolio, the Environmental Protection Agency, the Department 
of Energy, for example.
    We came forth with a draft definition, published it in the 
Federal Register Notice for comment by the American public, got 
something like 150 comments, processed them, made some changes, 
and then came out with our final definition. In all of our 
responsibilities, we have complete independence in the 
development of----
    Mr. Connolly. The Secretary hasn't called saying, hey, 
don't make me look bad because I am the author of that 
legislation?
    Mr. Galvin. No.
    Chairman Issa. Would the gentleman yield for a second?
    Mr. Connolly. Yes.
    Chairman Issa. Thank you.
    Mr. Tierney. As the other author of that legislation, and I 
can tell you as the one who started the legislation and was 
happy to be joined by the Secretary, this did not start as a 
subset of the Recovery Act; this started as a separate bill 
when my State made clear to me, through the employers or 
whatever, that they had emerging technology areas in clean 
energy and clean technology and clean manufacturing, and had a 
need for people that were trained in that area.
    I would suggest that there is a good showing that the 
global energy efficiency and renewable use industry 
internationally is going to grow by billions of dollars, going 
from 3 percent to 15 percent of energy generation on that time 
by clean energy by 2035. Some $6 trillion of money will be 
invested. And this Country wanted to be a leader in that area 
internationally, and my State, North Carolina, and others 
wanted to be a leader within this Country.
    Mr. Connolly. I thank my colleague.
    Chairman Issa. If that were the case, we needed to have 
people that were able to take those jobs because you need 
capital and a workforce that can do it.
    Mr. Connolly. I thank my colleague.
    Chairman Issa. Thank you.
    Mr. Connolly. And let me ask my colleague what year was 
that legislation before the stimulus?
    Mr Tierney. I think we started drafting that in 2008, early 
2009, but I think 2008.
    Mr. Connolly. Okay. I thank my colleague.
    But in listening to some of the comments and some of the 
questions about this, is the idea of classifying jobs in a 
particular category sui generis? I mean, it is unique to green 
jobs, it has never happened before in the BLS, Mr. Galvin?
    Mr. Galvin. No, absolutely not.
    Mr. Connolly. Oh, when else has it happened?
    Mr. Galvin. Well, you know, we have----
    Mr. Connolly. Quickly, Mr. Galvin.
    Mr. Galvin. Okay. Really, our insight for defining green 
jobs are two that came from our previous efforts to define 
high-tech jobs.
    Mr. Connolly. Would IT jobs be an example? Including the 
existing jobs, but reclassified so that we have a broad band 
category to identify what people are doing, is that correct?
    Mr. Galvin. Correct.
    Mr. Connolly. Now, what about the criticism that in our 
eagerness to classify and reclassify jobs as green jobs, we 
have taken century-old jobs that were there long before anyone 
thought of them as green jobs, sewer jobs and all kinds of jobs 
that seem silly, and we are just tripping over ourselves to 
redefine things as green so we have a good number? Why would 
the BLS be doing that?
    Mr. Galvin. Well, the BLS put the data together in a way 
which clearly breaks down each industry's worth of green jobs, 
and users who disagree with regards to our judgments regarding 
some industries, as to whether they are producing green outputs 
or not, can remove the employment associated with those 
industries from our numbers. But, again, this was an exercise 
just like defining high-tech jobs. There is no OMB definition 
for high-tech; it was our responsibility to look at existing 
jobs, decide which ones we wanted to classify as high-tech, and 
then count them up.
    Mr. Connolly. So despite the negative inferences to the 
contrary, what you are trying to do, as you have done before in 
the modern economy, is aggregate jobs in some broad 
classification so we can better understand the nature of the 
workforce and what people are doing, and create a baseline so 
we can measure is it growing or shrinking.
    Mr. Galvin. Correct. To provide usable, measurable 
definitions and data.
    Mr. Connolly. Sounds socialistic to me.
    My time is up. Thank you.
    Chairman Issa. Thank you.
    I now recognize myself.
    Mr. Galvin, when you were doing high-tech jobs, did they 
include a portable toilet emptying people? Did they include 
people who manufactured steel? Did they include people who did 
garbage job or ran recycling centers, sold used high-tech 
equipment? Were those high-tech jobs?
    Mr. Galvin. Not that I recall.
    Chairman Issa. Okay, so as is probably not true, but has 
been attributed to the late Joe Stalin, it is not the vote that 
counts, it is he who counts the votes. Ultimately, it is about 
whether or not the count is selective or whether it is not.
    You are not a political appointee, you are a career 
professional. If you were given the ability to reduce, for 
greater accuracy, true high-tech, would the number be smaller 
than it was in the past, since the gentleman mentioned that? In 
other words, if you could say, well, I would like to really 
make this very focused on high-tech, could you make the number 
a little smaller and reflect more directly ``high-tech?'' And I 
know high-tech is a tough one. Let's say biotech. If you were 
going to try and do biotech, you probably wouldn't include the 
person sweeping the floor in biotech; you would try to only 
look at the jobs created for which those high skills and what 
we assume biotech is about.
    In the case of green jobs, when we count nearly 50 percent 
of everybody making a box car for a train as high tech and 
everyone driving a transit bus, aren't we in fact inflating the 
number beyond what is the reasonable expectation by somebody 
who hears a quote, 3.1 million new green jobs?
    Mr. Galvin. No, in that methodology we are counting green 
jobs the same way we count jobs in any industry.
    Chairman Issa. Okay, I guess we are just going to assume 
that emptying porta-potties is a green job and that it is a 
fair counting, and I guess we will go on.
    Mr. Fillichio, you are probably the most important person 
here today. I assume you have read the Sandia Lab report?
    Mr. Fillichio. I have, sir.
    Chairman Issa. Would you agree to provide this Committee a 
copy of that report, a full copy?
    Mr. Fillichio. Mr. Chairman, the Department of Labor's 
lockup is still operating under the conditions that Sandia 
looked at, so it wouldn't be prudent to release the report just 
yet. As you know, we are trying very hard to change that system 
on July 6th. After July 6th, or after the situation that we 
have where we no longer are operating under what Sandia looked 
at, we would be happy to explore with the Committee how to 
release that.
    Chairman Issa. So you are refusing to give us the 
information based on an assumption that we cannot look at your 
vulnerabilities and your proposed rulemaking and make an 
analysis? I am not asking to post it on the website; I am 
asking you to release it to the Ranking Member and myself.
    Mr. Fillichio. Mr. Chairman, we are dealing with security 
issues, and making that report public while we are still 
operating----
    Chairman Issa. We are not asking you to make it public. 
Will you make it available to this Committee?
    Mr. Fillichio. I would----
    Chairman Issa. Our people asked and your people said no, so 
I am asking you.
    Mr. Fillichio. If I could get back to you today, Mr. 
Chairman, I would consult with our staff and we will get back 
to you today on that, if it is just to the two of you.
    Chairman Issa. We are looking at it being an embargo 
document, but it is very hard to look at your rules and your 
negotiations without knowing what was in that report.
    Mr. Fillichio. I understand, sir.
    Chairman Issa. Thank you.
    I am going to ask you just a few questions. I am old tech 
geek, so I apologize if these don't seem like the questions you 
expected. But was there any reason that you couldn't have come 
up with a standard that, for example, instead of your producing 
at your cost a line for these folks to send out T1, T3, 
whatever you are sending out, couldn't you have in fact 
specified and had specific standards and limitations, but had 
these reporting entities use their own dime to produce their 
own lines? Is there any reason that you could not have put the 
burden on, if you will, the editorial folks?
    Mr. Fillichio. Mr. Chairman, the way that the lockup is set 
up, the burden is shared by almost everybody, with most of the 
burden carried by the Department of Labor.
    Chairman Issa. Well, let me ask you the question. What is 
the cost of operating the lockups? You use them 10 times a 
month. What is the budget for that?
    Mr. Fillichio. There is no set budget; it comes out of----
    Chairman Issa. So you don't know what it costs to do 
lockups?
    Mr. Fillichio. I don't, sir.
    Chairman Issa. Do you know what the cost of the Sandia 
report was?
    Mr. Fillichio. I do, sir.
    Chairman Issa. How much was that?
    Mr. Fillichio. We entered into a Memorandum of 
Understanding with Sandia. We obligated a little over $184,000; 
we spent $70 of it. I think we will spend probably $20 more in 
the next phase of this----
    Chairman Issa. So it is a contract of performance where 
they come back and forth, so it is an ongoing contract.
    Mr. Fillichio. And we will probably not use about $80,000 
to $90,000 of that money.
    Chairman Issa. Use what you need to be secure. I don't 
think anyone from the dais is disagreeing with that part.
    Well, let me just ask the hypothetical. If you have private 
sector willing to spend their own money to move data, and this 
is a burst data, this is dated in which you don't use the 
bandwidth at all for hours and hours, and then you need a 
tremendous amount and, as was mentioned earlier, you had a 
fairly catastrophic crash of your own system. If you have 
private enterprise willing to spend their own money, wouldn't 
it, from a tactical standpoint of protectors of the taxpayers, 
wouldn't it be better to put the burden on them, whenever 
possible, to pay their own way, rather than, as is proposed, 
that you have the taxpayers pay for their dissemination of 
information?
    Mr. Fillichio. Mr. Chairman, one of the things that we have 
been exploring over the past month is better ways than what we 
proposed. And as you well know, we are in a much better place 
with the media organizations. I know that there are some rules 
where we cannot accept, there were some proposals made by the 
media organizations that would constitute a gift to the Federal 
Government, and we couldn't accept that. But I think we are 
being very creative and very innovative, and balancing our 
security concerns with their business and public 
responsibilities to find a solution
    Chairman Issa. We could probably just come up with a tax. 
That is how we do gifts to the Government, we just tax them. So 
I am sure there is a creative way to do that.
    Let me just close with a question that is most important 
for this hearing and why we wanted you here today. Would you 
commit to this Committee to stay the June 15th deadline unless 
a final agreement is met, and then reset that deadline for this 
transition to a date sufficient for whatever is agreed to? In 
other words, here we are less than two weeks away. If you were 
to implement your rule today, without change, it would be a 
very short period of time. Quite frankly, I think both the 
Ranking Member and I would be concerned. Would you agree to 
have a rolling stay on that while these negotiations that both 
of you have said have been fruitful so that we can have 
confidence that it will in fact be, as I am sure you really 
want it, a mutual buy-in by the fourth estate and yourself?
    Mr. Fillichio. Mr. Chairman, I am very anxious for this to 
work, and I am very anxious for you to have confidence in the 
security of our data and the security of our processes, our 
procedures, and our protocols. We are exploring with the media 
organizations fudging the time line a little bit, where we can 
get some things done by July 6th. We would prefer to. The more 
we can get done by July 6th, I think the better off we would 
be.
    Chairman Issa. So translating that, I think, for both of 
us, we certainly are not asking--if you have anything that is 
agreed with in this get-together with the press involved, we 
have no problem with implementing. But to the extent that you 
have not resolved issues, could you stay it and inform the 
Committee on a periodic basis of, if you will, the new date 
while you continue to negotiate additional items?
    Mr. Fillichio. I would be very happy to.
    Chairman Issa. I would be pleased. Thank you.
    Mr. Cummings. Would the Chairman yield?
    Chairman Issa. Yes, I would yield to the gentleman.
    Mr. Cummings. I just want to say that, Mr. Fillichio, I 
agree with what the Chairman just said. It seems like there is 
an issue of balance and it sounds like the parties are acting 
in good faith, and I just think it is the right thing to do to 
have that flexibility until you all can get done what you say 
you are going to get done. I am glad you said what you said and 
I am urging you all to provide that flexibility so that nobody 
will be, I don't want to say penalized because that is not the 
right word, but nobody should suffer as a result of the 
inability to get this worked out.
    I have full faith and confidence that it will be, but at 
the same time I think it is important that we give the media 
folks the comfort of knowing that they have room to do that 
without suffering any kind of undue hardship.
    Chairman Issa. I thank the gentleman.
    I thank you for your bearing with us on a hearing that 
uncommonly was somewhat on two unrelated, but related, 
somewhat, subjects. It is not often, but thank you for being 
here for both of our hearings.
    We stand adjourned.
    [Whereupon, at 12:49 p.m., the committee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>

</pre></body></html>
